<html>
<title> - NATIVE AMERICAN FISH AND WILDLIFE RESOURCE MANAGEMENT ACT</title>
<body><pre>[Senate Hearing 108-563]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-563

       NATIVE AMERICAN FISH AND WILDLIFE RESOURCES MANAGEMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2301

  TO IMPROVE THE MANAGEMENT OF INDIAN FISH AND WILDLIFE AND GATHERING 
                               RESOURCES

                               __________

                             APRIL 29, 2004
                             WASHINGTON, DC


                    U.S. GOVERNMENT PRINTING OFFICE
93-499                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 2301, text of.................................................     3
Statements:
    Carlson, Ervin, president, Inter-Tribal Bison Cooperative....    88
    Dubray, Fred, Inter-Tribal Bison Cooperative, Rapid City, SD.    88
    Frank, Jr., Billy, chairman, Northwest Indian Fisheries 
      Commission.................................................    65
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     1
    Jackson, Gordon, director, Business and Sustainable 
      Development, Central Council Tlingit and Haida Tribes of 
      Alaska.....................................................    85
    Mayo, Randy, first chief, Stevens Village, AK................    82
    Myers, Sonny, executive director, 1854 Authority.............    73
    New Breast, Ira, executive director, Native American Fish and 
      Wildlife Society...........................................    78
    Patt, Jr., Olney, chairman, Columbia River Inter-Tribal Fish 
      Commission.................................................    67
    Smith, Hon. Gordon, U.S. Senator from Oregon.................    71
    Schwalenberg, Dewey, natural resource/environmental program 
      director, Stevens Village, AK..............................    82
    Zorn, James, attorney-policy analyst, Great Lakes Indian Fish 
      and Wildlife Commission....................................    75

                                Appendix

Prepared statements:
    Carlson, Ervin...............................................    95
    Frank, Jr., Billy............................................   103
    Jackson, Gordon..............................................   108
    Mayo, Randy..................................................    98
    Myers, Sonny.................................................   113
    New Breast, Ira..............................................    98
    Patt, Jr., Olney.............................................   100
    Smith, Hon. Gordon, U.S. Senator from Oregon.................    95
    Schwalenberg, Dewey (with attachment)........................   118
    Zorn, James..................................................   142

 
       NATIVE AMERICAN FISH AND WILDLIFE RESOURCE MANAGEMENT ACT

                              ----------                              


                       WEDNESDAY, APRIL 29, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
485, Senate Russell Building, Hon. Daniel K. Inouye (vice 
chairman of the committee) presiding.
    Present: Senators Inouye and Smith.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. The Senate Committee on Indian Affairs 
meets this morning to receive testimony on S. 2301, a 
discussion draft bill that was introduced on April 7, 2004 to 
provide for support for the activities of tribal governments in 
managing fish and wildlife and gathering resources.
    The Native American Fish and Wildlife Resources Management 
Act of 2004 was developed by Indian tribes and the tribal 
organizations they charter to provide for the prudent 
management of fish and wildlife resources, as well as by Alaska 
Native governments and organizations. The act builds upon the 
foundation of earlier measures, some of which have been enacted 
into law, which are designed to more specifically address the 
nature of the United States' trust responsibilities as they 
relate to the natural resources that are held in trust.
    Tribal governments are the principal stewards of the 
natural resources of tribal lands. For thousands of years 
before European contact, tribes also served as the responsible 
stewards of the natural resources on millions of acres of land 
that were under their dominion and control. There were no 
shortages of resources in earlier times because the tribes 
regulated fishing and hunting and gathering in a manner that 
would assure the protection and conservation of our precious 
natural resources.
    They harvested only what was necessary for their 
subsistence and for those with whom they traded. But then came 
the massive influx of those who came to settle in America. With 
their westward expansion came the clear-cutting of forests, the 
resulting erosion of land, and the introduction of chemicals to 
foster the growth of agricultural crops that began to affect 
the quality of water in the streams and rivers and even the 
ocean, and later the construction of dams to provide 
electricity.
    All of these developments have had a devastating impact on 
the fish and wildlife and the habitat that is their home and 
which Indian tribes and other concerned citizens seek to 
preserve and protect. We have been for many years now at a 
critical juncture in maintaining the health and the very 
survival of wild species. The list of species that are 
threatened or endangered continues to grow and tough economic 
decisions have to be made.
    For instance, today on the front page of the Washington 
Post we read about a new rule being proposed by the National 
Marine Fisheries Service which announces that the 
Administration will now count hatchery-bred fish when it 
decides whether stream-bred wild salmon are entitled to 
protection under the Endangered Species Act.
    The bill that is the subject of the testimony we will 
receive today was largely drafted in Indian country by those 
who have expertise in the management of fish and wildlife 
resources. It is a work in progress, but I think it is 
important to note that this bill is not intended to, nor will 
it affect either an expansion or diminishment of tribal rights. 
What it is designed to do is provide support for what tribal 
governments are doing every day with increasingly limited 
resources to protect fish and wildlife, not only for the 
domestic consumption and subsistence uses of its citizens, but 
protecting these precious resources for all of our Nation's 
citizens.
    In many areas of the country, tribal governments are 
working with Federal agencies and State governments to develop 
and implement management schemes that will preserve fish and 
wildlife resources and foster the healthy growth of fish and 
wildlife populations. Each government has the responsibility of 
managing fish and wildlife resources within their respective 
jurisdictions, but working together Federal agencies and State 
and tribal governments are far better equipped to provide 
protections for fish and wildlife that do not honor 
jurisdictional boundaries, as for instance when the various 
species of salmon return from the ocean to their streams of 
origin to spawn.
    So we must all work together, and tribal governments must 
have the resources to carry on their traditions of responsible 
stewardship.
    [Text of S. 2301 follows:]
      

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Inouye. Now, may I call upon our first panel. The 
first panel consists of the chairman of the Northwest Indian 
Fisheries Commission of Olympia, Washington, Billy Frank, Jr.; 
the chairman of the Columbia River Inter-Tribal Fish Commission 
of Portland, OR, Olney Patt, Jr.; and the chairman of the 
Southwest Tribal Fisheries Commission of Lakeside, AZ, Mr. 
Arthur ``Butch'' Blazer.
    May I first call upon Chairman Frank.

   STATEMENT OF BILLY FRANK, Jr., CHAIRMAN, NORTHWEST INDIAN 
                      FISHERIES COMMISSION

    Mr. Frank. Good morning, Mr. Chairman. I am Billy Frank, 
chairman of the Northwest Indian Fish Commission for the last 
25 years. It is an honor to be here today with members of the 
committee, as well as our chairman.
    On behalf of our 20 tribes of the Northwest Indian Fish 
Commission we are pleased to appear before the Senate Committee 
on Indian Affairs to provide supportive comments on the Native 
American Fish and Wildlife Management Act.
    Today, we will provide some general comments with the 
intention of providing more specific comments pertinent to S. 
2301 over the coming weeks. We sincerely thank you and your 
staff for your extensive investment of time and energy in this 
legislation. We commend you.
    Tribes have managed fish and wildlife resources for 
thousands of years. Our treaties are now 150 years old in the 
Northwest. In United States v. Washington, one of our cases 
that was brought by the United States v. Washington in 1974 is 
now 30 years old. Out of that case, confirmed by the United 
States Supreme Court in 1979, came many legal principles as 
other principles of our tribes.
    One was the co-management of our tribes, that we use to set 
regulations and work with all of our tribes. Out of that came 
the Northwest Indian Fish Commission, an arm of all the tribes, 
to coordinate all of our fishery issues, internationally and 
200 miles out in the ocean. So we are managers.
    We need funding. We need Congress to come forward with 
legislation to give us funding for what we do as managers. We 
need training and education. We need legal support, technical 
and policy-level coordination support, and public opinion 
support.
    Tribes are good fish and wildlife managers. They always 
have been. We are not asking for anything we are not already 
supposed to have--to fish, hunt, gather and manage. It should 
not scare anyone. We are not trying to take over Federal lands 
or anything else. We are looking for ways to work together for 
common benefits.
    We gather berries from Canada clear down into Mexico on the 
Cascade Range, that runs south from Canada. That is where we 
have our ceremonies--up in the mountains on Federal lands. The 
range of the mountains are all Federal lands. It is protected 
by our Federal Government. But on that mountain they have signs 
that these areas are set aside for treaty Indian rights, for 
camping, for ceremonies. They have parks. They have real nice 
places for us to camp and have fires and gather our medicines, 
as well as our berries.
    It is a place for Indian people to come and drive around 
and think back of the memories of the many times that they have 
camped in that mountain. My brother and I drive there at least 
five or six times a year and just drive through the roads and 
think of all the memories of our past, of our grandmas and 
grandpas, and our children that played and enjoyed that 
mountain.
    We have memoranda of understandings; we have agreements 
with the Federal agencies that protect that land--for not only 
us, but for everyone, all the public; not only for the 20 
tribes that I represent--it goes clean into Oregon and the 
Yakimas on the other side of the mountain. All of our people 
enjoy that range of mountain that is Federal lands. This bill 
would enhance all of that that I am talking about.
    We need protection. We need protection. I talked about the 
Federal funding. We are looking out into the next 100 or 200 
years of protection and managing the resource in our country, 
in our own backyards. We have agreements with the big business 
of the State of Washington. We have agreements with the timber 
industry on timber fish and wildlife. We have agreements with 
in-stream flows, with the utilities on our rivers. We have 
hundreds and hundreds of rivers and streams. We have agreements 
with the agriculture people, as well as a lot of our people 
that live on our watersheds.
    The Indian tribes are on those watersheds 24 hours a day. 
We are there managing 24 hours a day. We live there. We have 
coalitions of all people of the State of Washington. We have 
coalitions of environmentalists. We have coalitions of 
agriculture people, farmers, and timber people. We have 
shellfish agreements out into the Puget Sound and along the 
Pacific Coast. We are working with the Federal agencies as 
partners, as well as the State of Washington and all their 
agencies.
    So we welcome and support this bill today, S. 2301. As you 
said, it is working. In order for us all to work together and 
make things happen, we have to sit down and try to get creative 
in the language that we do not hurt anybody. We have to get 
creative as thinkers and put thought into what we are talking 
about; thought into talking for the fish; talking for the 
animals; talking for the resource. How do we all talk and 
protect them at the same time and find a balance out there, 
with all the people that are moving into our country?
    We will work with the local government, the planners, and 
all. We have big water problems throughout our country and we 
have to address these very important things. Our tribes stand 
ready to do that, sir.
    We want to thank you and the committee, especially you, 
Senator, for being our person that always cares about Indian 
treaties and Indian rights and our people.
    Thank you.
    [Prepared statement of Mr. Frank appears in appendix.]
    Senator Inouye. I thank you very much, Chairman Frank.
    May I call upon Chairman Patt.

 STATEMENT OF OLNEY PATT, Jr., CHAIRMAN, COLUMBIA RIVER INTER-
                     TRIBAL FISH COMMISSION

    Mr. Patt. Mr. Chairman, members of the committee, on behalf 
of the Columbia River treaty tribes I would like to thank you 
for this opportunity to provide testimony on the Native 
American Fish and Wildlife Resource Management Act of 2004.
    My name is Olney Patt, Jr. and I am the executive director 
of the Columbia River Inter-Tribal Fish Commission, a 
Commission formed by resolution of the Nez Perce Tribe, the 
Confederated Tribes of Umatilla Indian Reservation, the 
Confederated Tribes of the Warm Springs Reservation of Oregon, 
and the Confederated Tribes and Bands of the Yakima Nation, for 
the purpose of coordinating fishery management policy and 
providing technical expertise essential for the protection of 
the tribes' treaty-protected fish resources.
    Both independently and through their Commission process, 
the Columbia River treaty tribes have worked cooperatively and 
with some success with the states and Federal agencies, as well 
as with private landowners to restore populations of the shared 
salmon resource. The Columbia River treaty tribes see this bill 
as an opportunity to provide a framework for tribes to deal 
with specific on-reservation resource management issues, as 
well as to provide a national framework that can allow tribes, 
states and the Federal Government to also successfully address 
regional management issues of shared natural resources.
    I will focus on a couple of key elements of this bill in my 
testimony today, and I will supplement the record with 
additional written testimony within a few weeks.
    Since 1977, our Commission has contracted with the BIA 
under the Self-Determination Act, Public Law 93-638, to provide 
technical expertise essential for the protection of the tribes' 
treaty-protected fish resources. What we have learned during 
this time is that through better regional coordination and 
cooperation, we can spend more time working with state and 
Federal land and water managers on developing shared resource 
management strategies and less time in court.
    Since the tribes formed the Commission, we have seen the 
development and implementation of a cooperative harvest 
management plan for the Columbia River. In the late 1960's and 
through the 1970's, the tribes spent much time in court 
debating how the tribes and States should share the 
conservation burden of the shared salmon resource. By the late 
1980's, the tribes and States had come up with an agreement on 
a plan for co-management of this resource. This plan, though 
currently under revision, has largely replaced the annual 
litigation over the conservation and harvest management of the 
shared salmon resource that originates in the Columbia River.
    In the early 1980's, we witnessed a dangerous coast-wise 
decline in Chinook salmon stocks from Southeast Alaska through 
British Columbia and throughout the Pacific Northwest. The need 
to deal with this conservation crisis helped to push the United 
States and Canada to reach an agreement on the Pacific Salmon 
Treaty of 1985. Under the treaty, there is now a management 
structure through which the parties can share technical 
information and develop strategies to deal with the management 
problems concerning the shared salmon resource.
    The Columbia River treaty tribes, along with the Western 
Washington treaty fishing tribes were significant participants 
in the negotiation of that treaty and continue to play a 
significant role in its implementation.
    Each of the examples I have outlined deal with complex 
multi-jurisdictional management issues. This bill by 
specifically allowing tribes to opt in to the resource 
inventory and planning process recognizes the needs of the 
individual tribes within regions and across the continent. This 
bill does not force any tribe to undertake the resource 
inventory and management planning process provided in this 
bill.
    Undertaking a resource inventory and survey could only 
occur at the request of the tribe. The development of the 
resource management plan would then follow at a pace set by 
each individual tribe. Nor would this bill require any tribe to 
abandon a current management plan, co-management agreements, or 
any other working resource management plan. It does offer the 
promise of a structure and the resources that can be utilized 
by the tribes at their option in developing new plans or in 
revising old management plans.
    I would like to note one important element in this bill. 
Section 202 of the bill provides a framework to increase the 
educational opportunities for tribal members to gain the 
knowledge and training necessary to manage tribal resources. It 
also provides an opportunity for tribes to coordinate and 
cooperate with other tribes, with universities and others as 
appropriate on technical and scientific issues associated with 
resource management.
    We see great promise in the development of tribal 
cooperative research units at universities across the country. 
Within the Columbia River Basin, the Commission, working with 
its members tribes, identified a critical regional need for 
additional facilities to handle genetics work associated with 
regional management restoration activities.
    On behalf of its member tribes, the Commission entered into 
a memorandum of agreement with the University of Idaho to cite 
these facilities at the University's aquaculture research 
facility. Building upon that agreement and acknowledging the 
desire of other tribes in the basin to participate in the 
opportunities offered by our arrangement with the University, 
we have worked with the University to outline a memorandum to 
establish a cooperative research unit that other tribes can 
join as well.
    The formation of that tribal cooperative research unit at 
the University of Idaho provides several benefits. It allows 
the tribes to have their own staff driving the research agenda 
and working on resource issues of importance to the tribe. It 
offers tribal staff the opportunity to reach out to the non-
tribal community through teaching assignments at the 
University. It provides a place for tribal members attending 
the University to take on undergraduate or graduate degree 
research work.
    All of this would be accomplished in a cooperative, 
coordinated research forum that could include other state or 
Federal researchers. I would note that it is important that we 
ensure that the opportunities laid out for tribal students in 
this section of the bill, especially as to the development of 
the cooperative research unit system, are integrated with the 
opportunities and work of the Indian college system.
    For the reasons I have laid out in my testimony today, the 
Columbia River treaty tribes support the general concepts and 
opportunities provided in the language of the Native American 
Fish and Wildlife Resource Management Act of 2004. We would 
welcome the opportunity to work with you, other members of the 
committee, and with your staff to fine-tune the bill to ensure 
that it meets the needs of all the tribes within the United 
States and to ensure its passage here in Congress.
    Thank you.
    [Prepared statement of Mr. Patt appears in appendix.]
    Senator Inouye. I thank you very much, Chairman Patt.
    Chairman Frank and Chairman Patt, both of you have very 
eloquently described the successes that your commissions have 
had in developing and establishing relationships with the 
Federal Government and the State and county governments. Does 
this measure do that also, to enhance and encourage tribal 
commissions or tribal governments to establish these 
relationships?
    Chairman Frank.
    Mr. Frank. Yes; it does. We see this bill as a very 
important step for the U.S. Congress to assure us that we will 
be managers of the resource and enhance our ability to manage 
just like the States do. We are all part of it and we work 
together to make that happen. We have so many agreements in the 
last 30 years that I talk about of co-management. This bill 
will enhance all of the agreements that we have put together.
    Senator Inouye. Chairman Patt.
    Mr. Patt. Yes; I believe so. The tribes have been major 
parties to all of the decisionmaking processes in the 
Northwest. In many cases, we find that we have to reestablish 
our place at the table with each new process. This bill carves 
out a place for the tribes to be at that table at all times.
    We have been major parties, as I pointed out, to the 
Pacific Salmon Treaty, United States v. Oregon, the major 
management plan for the Columbia River Basin and so forth.
    Senator Inouye. So this bill, if passed, would give you a 
foundation of laws that would protect these relationships?
    Mr. Patt. Yes.
    Mr. Frank. Yes.
    Senator Inouye. Do you believe that without tribal 
involvement or tribal commission involvement in the management 
of resources, the overall health of the resources will suffer? 
Is this something that just the Federal Government can do?
    Mr. Patt. No; I believe because of the nature of the 
Federal Government personnel in the region, it is often 
necessary to reeducate new people who are coming in, say, for 
instance in the Fish and Wildlife Service, NOAA and all of the 
various Government agencies we work with; the Forest Service, 
BLM, as to treaty rights and to educate them on existing 
agreements. Often when these Federal officials are well 
educated on the tribes' role in the regional management 
process, they are reassigned. So this is kind of an ongoing 
process.
    Senator Inouye. Chairman Frank, this measure calls for 
programs such as seafood marketing programs. Why do you think 
that these programs would provide assistance of value to 
tribes?
    Mr. Frank. I think that it will give us an opportunity to 
put our marketing schemes forward with the Federal Government. 
Marketing right now with Indian tribes in the Northwest and our 
fishery is at about the lowest level that I can think of right 
now. No one wants to buy our salmon. There is so much salmon 
out there now. They call it Atlantic salmon. They are penned 
salmon. We Indian tribes in the Northwest, we are catching 
Pacific salmon. They are wild. So we do not have a market for 
that. This will give us an opportunity to expand our market 
into the Federal system and start supplying, maybe working with 
the Army or whoever it might be. It is a great opportunity for 
us.
    Senator Inouye. In my opening statement, I referred to an 
article that appeared in the Washington Post about the counting 
of salmon by using the hatchery-bred salmon as part of the 
count. What do you think about that?
    Mr. Patt. We have not had a chance to look at the full 
proposal of the Federal Government. I have only just read the 
article myself. What it represents to us is maybe another 
changing of the rules. We have been dealing with NOAA Fisheries 
and the Fish and Wildlife Service extensively on different 
listed species, from bull trout to salmon and steelhead stocks. 
It seems to me that this is kind of an all-or-nothing approach. 
We have struggled with NOAA Fisheries and the Fish and Wildlife 
Service in our efforts to restore salmon, using appropriate 
stocks and the wise use of artificial production. We have been 
hamstrung at every turn by the scientific certainty that they 
are demanding, such as the hatchery genetic management plans 
that are necessary in order for us to implement any artificial 
production measure.
    This seems to turn that whole rule clear around to where 
there is going to be no distinction between wild and hatchery-
reared fish. So there are many, many facets of this, one of 
which is a bill by Norm Dicks to mark all hatchery-bred fish at 
federally funded hatcheries. If those are going to be part of 
the listed species, there is going to be some considerable 
discussion about that.
    Mr. Frank. Senator.
    Senator Inouye. Chairman Frank.
    Mr. Frank. If I could comment. They have a new rule that 
they are trying to put together. They have to be very careful 
what they are doing. I mean very careful because the wild 
salmon in the Pacific Northwest are still wild. If the rule 
says everything is going to be hatchery, then there will not be 
any in-stream flows; there will not be any timber, fish and 
wildlife agreements in the Northwest to grow trees and have 
shade along the streams and the temperature of the water and 
the gravel in the streams; debris in the stream, logjams.
    They have to be very careful what direction they are going 
when they talk about wild salmon and artificial salmon. This is 
very dangerous ground. It better be well thought out when they 
do something like that, because we have a lot of agreements in 
the Northwest with our neighbors, and working together and 
trying to find a balance on wild and artificial. We have 
hatchery reform that has been taking place in our country. It 
is very serious. The Federal Government is involved in that, 
NOAA, all of us, the State of Washington and all of our tribes.
    So we feel that we are going forward. We are taking steps 
to make the hatcheries reform to wild and how they can work 
together in our country.
    Senator Inouye. In other words, do you believe that if this 
new rule is put into effect without consultation with tribal 
governments and commissions, it may place the wild salmon in 
jeopardy?
    Mr. Patt. As I said, I have not had a chance to look at it, 
but yes, I believe so. I believe just as Mr. Frank has stated, 
that it will probably loosen up rules. Right now we have a 
major issue in the Columbia Basin on summer spill. I think this 
may be geared toward that as the NOAA Fisheries and the 
Bonneville Power Administration has canceled a couple of 
meetings with us in the last two weeks. Those meetings were 
intended to bring this proposal to us on summer spill. I 
suppose this would be a way around that.
    Senator Inouye. May I request that both your commissions 
look into this matter and share with us your thoughts on this?
    Mr. Patt. Yes.
    Mr. Frank. Yes; we will, absolutely.
    Senator Inouye. Senator Smith.

    STATEMENT OF HON. GORDON SMITH, U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. It is a pleasure to 
be with you today and express my support for the Native 
American Fish and Wildlife Resources Management Act. I have a 
longer opening statement. In the interest of time, I will put 
it in the record.
    [Prepared statement of Senator Smith appears in appendix.]
    Senator Smith. I believe that what underpins this act is 
the natural stewardship Native Americans feel to the 
environment. Their actions are borne out by a millennia of 
history in managing their lands and their resources. I think no 
matter what the law is, their conduct will be above and beyond 
that law because that is part of their culture and their 
history that is unchangeable.
    I would--as one familiar with many of the issues Mr. Frank 
and Mr. Patt are discussing here--like to welcome them both as 
Northwesterners. Mr. Patt is a neighbor in Warm Springs, OR. I 
would express at least my view that in terms of hatchery fish, 
the management of hatcheries needs to be done very carefully 
and to the highest of standards. If done so, it can be done in 
a way that is consistent with preserving wild fish.
    It is my understanding that the highest scientific 
practices require that hatchery fish come from the eggs and the 
milt of last year's wild fish. I have not heard scientists 
describe a genetic difference between those fish 1 generation 
or 1 year removed from the other as being genetically inferior 
or somehow inappropriate to be in the ocean or in our rivers, 
but some believe that they are. I do not think it is an either/
or equation. I think we can have both if it is done carefully 
and to high scientific standards.
    As to the whole issue of spill, I hope what is being done 
is attention being given to hard data as to what provides the 
greatest survivability, improves the survival of the fish that 
are migrating to the ocean. I have been shown data that 
suggests that spilling them actually heightens their mortality. 
More of them have gas bubble disease. They float, they get 
picked off, they are made more vulnerable than by some of the 
other means to get them through or past the dams, which at the 
same time can produce electricity.
    The only thing I am saying is if you save more fish by 
running the dams and spilling less, and you could also create 
electricity, it seems to me that reasonable people and courts 
looking at facts can experiment to find out what the truth is. 
I think everyone approaching this issue needs to have as their 
objective saving fish and producing the energy that we 
desperately need to improve economic opportunity in Washington, 
Oregon, and Idaho, where we have some of the highest 
unemployment rates in the country. That rate does not come down 
if energy production fails to go up, or if energy prices remain 
high.
    So what I am being told is there is hard data, objective 
science which suggests you can produce energy and save more 
fish. I think that is a worthy thing to do. It speaks for 
itself. No one, and myself among them, wants to stop spilling 
if it means we destroy a species. I just simply want to know 
what the facts are. I think that is what I am hearing from many 
of you, along with a word of caution. Be careful. I share that.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much, Senator Smith.
    Mr. Frank. Senator.
    Senator Inouye. Yes; Chairman Frank.
    Mr. Frank. I would just add to that, Senator Gordon Smith 
from Pendleton, OR. I am proud of what has taken place with all 
the tribes in Oregon. I have been down to visit them and 
working with the farmers and working with the state, as well as 
within the reservation or adjoining the reservation. You have a 
lot of water flowing now, and working together is very 
positive.
    Now, the hatcheries, I would hope that the United States 
would give very long thought about hatcheries reform or 
hatchery rule or whatever they are talking about, because we in 
the Northwest, all of us, we are talking about the next 100 
years. We are not talking about a quick fix like a rule. We are 
talking about getting the people and the public behind 
everything that we are doing as far as hatchery reform, and try 
to find that balance, as our Senator from Oregon was talking 
about, and to have time to do that.
    Now, I hope if a rule comes out that they give a lot of 
thought to hatchery and wild salmon.
    Senator Smith. Absolutely.
    Mr. Patt. Senator Smith, we also have been striving to come 
up with some good numbers on the curtailment of summer spill. 
One of the big hurdles in doing that is BPA's regional battle 
cry of $77 million to save 24 fish. That has not helped the 
effort at all. However, we are working with NOAA Fisheries and 
we think we are coming closer to some agreement on the juvenile 
mortalities.
    I was just told that our staff will be meeting with your 
staff tomorrow morning to go over some of those numbers.
    Senator Smith. We look forward to that.
    Senator Inouye. I thank you very much, Chairman Frank and 
Chairman Patt.
    Our next panel, the executive director of 1854 Authority of 
Duluth, MN, Sonny Myers; the attorney-policy analyst of the 
Great Lakes Indian Fish and Wildlife Commission of Odanah, WI, 
James Zorn; the executive director of the Native American Fish 
and Wildlife Society of Broomfield, CO, Ira New Breast.
    Mr. Myers.

  STATEMENT OF SONNY MYERS, EXECUTIVE DIRECTOR, 1854 AUTHORITY

    Mr. Myers. Thank you. Mr. Chairman, members of the 
committee, my name is Sonny Myers. I am the executive director 
of the 1854 Authority. What we are is we are an intertribal 
natural resource management organization that implements the 
off-reservation hunting, fishing and gathering rights of the 
Grand Portage and the Bois Forte Bands of the Lake Superior 
Chippewa in the area that was ceded in the Treaty of 1854. So 
we are up in northeastern Minnesota.
    I would like to thank the committee for the opportunity to 
comment on this important piece of legislation. I consider it 
an honor to be here today. I would also like to make a special 
note to the committee staff who have been working very hard, 
been very active in gathering actual tribal input. It seems 
like the current draft is a direct reflection of what the 
tribes have been trying to bring forth. And also from my 
perspective, their understanding of the real-world political 
processes, how these things actually work and moving these 
things along, has been very, very helpful because I am a little 
bit new at this process.
    As everyone in this room is aware, great things have been 
happening in Indian country relating to tribes' ability to 
oversee its own members and also to oversee its own reserve 
resources; 15 years ago, I am speaking from Minnesota, at least 
from our perspective, a Band member would have been arrested 
and actually was arrested for moose hunting off the 
reservation. Now, the right was there, but now today we are 
actually at the table not only participating in the 
discussions, but providing valuable input into harvest quotas 
that are set for both the State and tribal hunters.
    Ten years ago, a bi-national effort to protect the waters 
of Lake Superior was brought forth. That meant every 
jurisdiction was at the table, except for the tribes. Actually 
now today we are not only at the table, as well as other tribal 
organizations, but in many cases tribal staff are key members 
of working committees there.
    Really, about 5 years ago, things are a little stickier in 
the fishery realm; there is a stigma attached to fish and 
Indians back home, but the concept of cooperating on a 
fisheries information gathering effort with State folks did 
happen, but it was a real grudging affair. As I speak, last 
night and tonight members of my staff will actually be out 
there working in a very cooperative, friendly manner on 
gathering that type of information.
    I just wanted to say that. You know, it has really been our 
charge or our commission to champion the tribes' rightful place 
among the stakeholders in managing the shared resources in the 
area that has been reserved in the 1854 Treaty area.
    So indeed, great things have been happening. I wanted to 
make note of that because we are very thankful for the 
foundations that have been laid and the groundwork by many of 
the people, especially out in the Northwest, and some of my 
colleagues here from Wisconsin, sort of laid the groundwork for 
our successes in Minnesota. But also as everyone in here is 
aware, there is a constant striving or a constant effort to 
erode the sovereignty that the tribes are working very hard to 
maintain.
    Hence, we think this Native American Fish and Wildlife 
Resource Management Act will hopefully be a means to take or 
move tribal fish and wildlife management to its rightful place.
    So I just have a few comments on the proposed legislation, 
why we think it is necessary and hopefully these things will be 
addressed and are addressed in the proposed legislation. We 
think it is necessary because it expressly recognizes that 
Indian tribes must have a role in managing ceded territory of 
fish and wildlife resources. Not only should the tribes be at 
the table, but as time is telling, it is actually a benefit to 
have the tribes at the table when discussing these resource 
issues.
    Statutory acknowledgment of these treaty rights is 
necessary because the rights are too often subordinated to the 
interests of others who have no treaty rights, but have strong 
political influence. Even though we are gaining ground in 
respect, very often and most often we are lumped in with other 
special interest groups when it comes to frameworks in which to 
provide comments and to be part of the process.
    Last, I just want to say that we are sensitive to the 
concerns of others, the tribes are, but we must ensure that the 
quality and the quantity of the fish, game and traditional 
plants, and the access to them, is not diminished because of 
land management practices that do not consider treaty rights. I 
wanted to quantify ``access'' to mean that is both the physical 
access of actually getting to an access, and also some of the 
methodologies. This is especially a concern for us in our lands 
which are managed by the Federal Government. The 1854 Treaty 
encompasses both a national forest and a designated wilderness 
area, so we are talking a large portion of the 1854 Treaty area 
where the Band members hunt, fish and gather is managed by the 
Federal Government.
    So last, I will just close with this legislation hopefully 
should not be construed as a replacement for what is going on, 
but really hopefully what it would do it really would enhance 
what is going on and further the cause of establishing the 
tribes' rightful place among the stakeholders in managing these 
shared resources that have been reserved.
    My ancestors had the foresight to reserve those rights and 
we are thankful for that. We are beneficiaries of some very 
explicit treaty language for ceded territories, and hopefully 
we can have the foresight to preserve those rights.
    Again, I would like to thank the committee for the work 
that has already been completed, and I really look forward to 
bringing this important legislation to fruition.
    Thank you.
    [Prepared statement of Mr. Myers appears in appendix.]
    Senator Inouye. I thank you very much, Mr. Myers.
    Mr. Zorn.

 STATEMENT OF JAMES ZORN, ATTORNEY-POLICY ANALYST, GREAT LAKES 
              INDIAN FISH AND WILDLIFE COMMISSION

    Mr. Zorn. Thank you, Mr. Chairman, Senator Smith, other 
members of the committee. Again, it is a great honor to come 
before this committee and talk about this important matter. As 
you recall, last June 3 we had an oversight hearing where 
tribes and tribal organizations from around the Nation came and 
helped to present a record for this committee as to what Indian 
tribes and their agencies are doing out there to protect 
natural resources and to help tribes exercise their sovereignty 
over those resources.
    The Great Lakes Indian Fish and Wildlife Commission is an 
agency of 11 Chippewa tribes located in Minnesota, Wisconsin, 
and Michigan. All of those tribes have signed treaties with the 
United States whereby they ceded a large section of land in 
those areas, and in those treaties they specifically reserved 
the right to continue to hunt, fish and gather--in essence to 
continue their life-ways on the lands that were ceded.
    The tribes' rights include the right to regulate their own 
members and to play a role in the management of those natural 
resources that are subject to the rights, as well as in 
protecting the habitats and ecosystems that support the 
resources that are harvested.
    So that is our perspective here today. We offer our written 
testimony. We will let that go in the record and we will just 
offer some thoughts now orally to highlight what is in the 
testimony, and we hope that our June 3 testimony also is 
brought into this record, or at least considered.
    We are extremely grateful to the committee and the 
committee staff, as well as to the tribes from around the 
Nation and their staff, for the hard work that has gone into 
developing this bill. It is very clear that this committee 
listened very carefully to the tribes, not only on June 3, but 
about 10 or 12 years ago when a previous version of this bill 
was being kicked around and being considered. There is great 
sensitivity by this committee to the needs in Indian country 
and this bill reflects that.
    What this bill, in our view, is really about is identifying 
the Federal role to support and assist the tribes as they play 
their proper role in natural resource management particulary 
within tribal communities, where the tribal governments have 
the most important role to play, as well as with other tribes, 
perhaps with whom they share use areas like in our situation 
with the ceded territories and in the Northwest. I think we 
often forget that the term ``co-management'' also includes 
management among the tribes. This is a very important aspect 
that the bill properly recognizes.
    And, ultimately, the proper rule with other governments and 
with the larger community, beyond the tribal community, because 
these natural resources are shared by everyone. The tribes want 
to play their role in protecting the natural resources and in 
sustainable populations of natural resources for generations to 
come, not just for them, but for their neighbors.
    As I understand this bill and as I understand how it is 
drafted, the tribes are not asking for any rights or 
responsibilities that they do not already have. Each tribe has 
the rights that it has, and those rights simply are what they 
are. The bill then is really, in our view, a tool to help the 
tribes realize and achieve their rights as governments to be 
involved in natural resource management activities, both on the 
reservation and off the reservation where existing tribal 
rights and responsibilities attach.
    Senator Inouye, to use a phrase that was used many years 
ago in Wisconsin, we view this bill as Congress helping ``cast 
the light,'' so to speak, on the Federal Government's proper 
role, particularly the executive branch's proper role, in 
honoring and supporting tribal rights and management 
responsibilities both on and off the reservation, in fulfilling 
the purposes of the Self-Determination Act to get the funds and 
the responsibilities for running those programs down to the 
tribes themselves, and not to a Federal bureaucracy, and to 
ensure that wherever Federal authority is carried out, by 
whatever Federal agency, those agencies and that authority is 
carried out in a way that does not infringe upon the tribes' 
rights, and in fact honors them and helps support them.
    This really is not just about tribes. It is about the 
Nation as a whole. As we recently found out in a strategic 
planning process with the Fish and Wildlife Service's Fisheries 
Program, partners and stakeholders from around the Nation--from 
the Federal Government, State governments, non-governmental 
organizations and tribes--got together and talked about the 
crises that are facing this Nation's natural resources, 
particularly aquatic habitats. There is a call now for a 
national aquatic habitat initiative because of common problems 
faced around the country, particularly with invasive species, 
habitat loss and so on.
    In that strategic planning process, there was the 
practical, if not legal, recognition that the tribes need to be 
there; that the job cannot be done without tribes. Tribes 
control a great deal of land and resources on the reservation. 
And, they play a great role where they have ceded territory 
rights in ensuring the sustainability of resources. The 
partners uniformly recognized that tribes need to be at the 
table if this Nation is to succeed in passing on the legacy of 
natural resources that we inherited, if not a better one.
    With those background comments, we have a few particular 
comments on the bill's provisions. I will just highlight them 
briefly. First of all, we hope the bill does not result in the 
creation of a new bureaucracy within the Department of the 
Interior. We just hope that the committee assesses that. We 
understand that there is a dialog between tribes and the 
committee, and there will be a dialog with the Interior 
Department as this bill moves forward. This is just something 
we want to keep in mind--The purpose of the bill is to get the 
funds and responsibilities out to the tribes. We should be 
careful not to keep them within the Federal agencyif a tribal 
natural resources management program is created within 
Interior.
    Second, we understand there may be some prospective issues 
with the bill that involve the dilemma that Federal agencies 
face. We call it the dual mandate dilemma, where Congress 
legislates particular responsibilities for an agency, such as 
for the Forest Service with national forests, saying this is 
your job. The statute says this is what the agency must do. Yet 
there is the separate stovepipe of obligations of each agency 
with respect to the tribes' reserved treaty rights, where that 
agency must honor those rights, and must carry out its 
responsibility and authority under the other specific act in a 
way that is consistent with those rights.
    It is not a matter of taking over the Federal lands from a 
tribal perspective, especially the lands off the reservation. 
It is a matter of having the Federal agency recognize tribal 
rights, making sure those rights are implemented, and making 
sure the Federal land is managed in a way that does not 
infringe upon those rights and supports the habitats of the 
natural resources that are subject to the rights. So we do not 
think that this is a big problem and we offer our experience 
with the Forest Service and with the National Park Service over 
the last 10 to 15 years as examples of how things might work 
out.
    In terms of how the Self-Determination Act funding might 
fit in that circumstance, our agreement with the Forest 
Service, for example, is that the Forest Service will recognize 
and assist the tribes in implementing their treaty gathering 
rights. Yet when it comes time to getting positions on our 
staff to deal with the Forest Service, the Forest Service will 
say--``we do not have the funds; we are not authorized to give 
you funds.'' In fact, we were turned to the part of the Forest 
Service called State and Private Forestry to look for those 
funds. So our hope is that through this act we can then say, 
when we have our arrangements set, that the Self-Determination 
Act can help give us our infrastructure on the tribal side that 
we need to help implement that agreement.
    Second, in terms of the natural resource management 
planning and other requirements of the act, we certainly hope 
that the act is not intended to require the tribes to change 
their natural resource management traditions or methods, or to 
change or alter their existing management plans, to either 
conform to the bill's requirements as a prerequisite for the 
exercise of retained tribal sovereign prerogatives to carry out 
those natural resource management activities or as a 
prerequisite for Self-Determination Act funding or technical 
assistance. Let's make sure we do not slide backwards through 
this bill. Let's make sure that we use the foundation we have, 
move forward, and bring more funds and more tribes into the 
assistance that the Federal Government should be providing.
    Finally, I know that there are portions of the bill that 
need to be developed, in particular with respect to health 
issues and the idea that ``what good are these natural 
resources if they are not safe for tribal members to consume.'' 
The Commission offers its assistance to help develop those 
provisions. It could be somewhat complex, given that this calls 
into question perhaps the FDA-type responsibilities about the 
safe handling and processing of foods and so on. But it also 
carries issues like Mr. Frank identified, such as the idea of 
wholesome tribal wild rice harvested from nature. The rice is 
good; it is clean. It is probably about $10 more a pound than 
California-grown paddy rice, which might be genetically 
modified, and tribes are at a tremendous competitive 
disadvantage because of that type of situation. So perhaps this 
bill could help.
    With those comments, we submit our written testimony for 
the record. We continue to engage in the dialog with the staff 
and the other tribes, and we certainly thank the committee for 
its attention to this matter.
    [Prepared statement of Mr. Zorn appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Zorn.
    Mr. New Breast.

    STATEMENT OF IRA NEW BREAST, EXECUTIVE DIRECTOR, NATIVE 
               AMERICAN FISH AND WILDLIFE SOCIETY

    Mr. New Breast. Hello, Mr. Chairman. Thank you for this 
honor and opportunity for the Society to speak before the 
committee today.
    We would like to first again express our gratitude for the 
committee's interest and hard work, particularly the staff, and 
also recognize the dedication of the working group that has put 
together much of the language that encompasses the bill.
    Our statements are fairly short. The Society, of course, is 
a national nonprofit organization that encompasses assisting 
tribes for informational networking, education and scientific 
purposes. Ours is not necessarily an advocacy organization, but 
we do have short comments that we would like to put into the 
record.
    The bill that we are discussing here today obviously does 
face a number of challenges, the scope of which is vital in 
every aspect that is contained within the language of the bill, 
but it is broad. Because it is broad, there are many challenges 
that arise with the overall future and success of the bill. We 
have confidence in the working group that is addressing these 
things, but we would like to encourage that all concerned 
recall the original theme of the bill from the 1993 history to 
the recent Portland 2003 January discussions, is to address 
fundamental fish and wildlife conservation management. So in 
the bill, quite possibly explore avenues to narrow the focus of 
the bill, to encompass that theme and keep it in mind. Of 
course, that is as we discuss and try to consider what 
challenges may face the bill for the future.
    Ultimately, the success of the bill, of this endeavor, will 
be measured by the eventual funding for this language of the 
bill. In particular, the achievement of this will be in the 
term of permanent funding. We understand the parameters that 
are affecting the strategies in the withholding of identifying 
funding for this bill, and hope for the future as we go forward 
that this may be realized in the future.
    As an example of what the funding might look like, for over 
more than 500 Federally recognized tribes, and to realize the 
intent of the bill and proceed productively, the numbers that 
will have to be realized to provide base funding for tribes 
will have to be in the hundreds of millions. We realize this 
may be sometime in the future. But that keeps in mind from an 
individual standpoint as a former Director of the Blackfeet 
Fish and Wildlife Department, we remember this bill, and 
remember what the hopes that it had entailed basically to 
provide tribes with the funding capability to manage their fish 
and wildlife programs, their resource. So we encourage the 
committee and the working group as they move along to keep that 
in mind as we move along.
    Certainly, the Society supports the tribes in their efforts 
to realize this type of legislation, and particularly because 
we are so strong as an informational networking group, we 
encourage the use of the Society to disseminate some of the 
information to the tribes. I would like to point out that many 
tribes do not want organizations. They are in some respects 
independent, and so find it difficult at times to have their 
voice heard in different forums. So they look to the Society to 
perhaps provide that gap of information.
    So when we are talking about strategies in the development 
of this bill, and how we are incorporating all of the tribes, 
it would be in their interest to be able to at least have the 
benefit of understanding what those strategies are, rather than 
seeing the end product of what those strategies were trying to 
achieve, knowing that the overall effort is one for the benefit 
of all the tribes in their fish and wildlife interests.
    That concludes the Society's comments for today.
    Thank you.
    [Prepared statement of Mr. New Breast appears in appendix.]
    Senator Inouye. I thank you very much.
    All of you have suggested that this measure provides a 
statutory recognition of treaty rights. In essence, this bill 
does not create any further rights for Indian tribes. However, 
it will provide funds that would make it possible to implement 
these rights. Is this bill necessary to do that? Or can you 
just carry on the way you are now?
    Mr. Myers. I can take a shot at that. I think it is 
necessary. There is really limited amount of money, at least in 
our perspective; I should not say our perspective, the tribal 
perspective; there are not a lot of funds available to actually 
do work. We are not looking to create new levels of bureaucracy 
or new programs or whatever. But the funds are limited on a 
major scale.
    That is one of the reasons, I guess every time I come out 
here I may sound like a broken record, but I champion the 
Circle of Flight program, and on the grand scale it is 
relatively meager dollars, what it does on the ground is really 
allows the tribes to become a player out there in the ceded 
territories. We cooperate with the Federal Government. We 
cooperative with country governments, state governments. There 
are private organizations like Ducks Unlimited, as well as 
individuals who are just interested in a certain resource.
    So I guess hopefully what this bill would do would maybe 
expand some of those areas where funding may become available. 
Even that one sort of gets put on the cutting floor every year. 
But again, on the grand scale, a meager amount of dollars, but 
on the ground where the tribes are actually working, it has 
just done amazing things for us.
    Senator Inouye. So you consider the important element to be 
funding?
    Mr. Myers. Certainly a part of it. We could have the 
statutory framework to say, yes, we are tribes and we have the 
rights out there, and that is all fine and dandy, which helps, 
but it is certainly nice to have some funds available to 
actually participate in those processes. I do not think anyone 
is looking for expanded programs, but it would really be nice 
to have some dollars to hit the ground and work on the 
resources with.
    Senator Inouye. Mr. Zorn.
    Mr. Zorn. To endorse and to add to what Mr. Myers said, the 
bill certainly is necessary from the perspective of Congress 
directing Federal agencies to recognize the Federal 
Government's trust and treaty obligations. We often hear from 
agencies that ``oh, it is not within our organic statute,'' say 
the Army Corps of Engineers about the issuance of 404 permits, 
``it is not within our statutes here to look at tribes and 
their treaty rights as anything else other than a public 
interest-type criteria.'' The Corps needs to recognize that the 
Federal Government does have unique obligations towards tribes. 
In that sense, this bill would be very necessary and very 
helpful to get those other agencies to recognize and implement 
the Federal Government's trust and treaty obligations.
    Then the bill is also necessary in the context of the 
larger picture forboth congress and executive branch in terms 
of the standing of tribal natural resource management programs, 
that they are a congressionally recognized, important aspect of 
tribal sovereignty and that they should get the attention they 
deserve, hopefully within Interior as well as within other 
agencies. And the bill would allow the tribes and others to do 
the battle for the budget. We can no longer hear that, well, 
natural resources are over here; no they are here; they are 
center stage; they are part and parcel of tribal sovereignty 
and a very important part. So in that sense, the bill is very 
necessary.
    Will the tribes continue, as Senator Smith said, to do what 
they have done for millennia without this bill? They certainly 
will. Will this bill help them do a better job and help this 
Nation do a better job and get better results for this Nation's 
natural resources? This bill will certainly help and is 
necessary.
    Senator Inouye. Mr. Zorn, in your written testimony, you 
spoke of the dual management dilemma. Can you give us an 
example of that?
    Mr. Zorn. For example, the national forests, as Mr. Myers 
said. They are part of the public land-base off the 
reservations where the tribes may exercise their treaty-
reserved hunting, fishing, and gathering rights. The tribes 
went to the national forest and said, look, we think we can 
gather some wild plants here for medicinal, cultural and other 
purposes like we have always done, including wild rice. You 
would face potentially the argument that the National Forest 
Management Act, the Four Corners statute of that agency, did 
not say anything about the Forest Service recognizing and 
implementing these rights and honoring these rights. It 
provided no guidance to the agency as to how the Forest Service 
should exercise its Federal management responsibility over 
those lands to make sure those tribal rights were indeed 
honored.
    So we sometimes will face the issue where the agency will 
say, ``we have this job to do that Congress gave us, but 
Congress has provided us no guidance as to that other stovepipe 
of the trust and treaty obligations.''
    Senator Inouye. Mr. New Breast, how do you view this bill 
as assisting your organization?
    Mr. New Breast. One of the mechanisms of assistance that 
this bill would do in regard to creating the type of base 
funding that is needed throughout Indian country is raise 
capacity for all aspects of the infrastructure of an 
organization, whether they are tribal fish and wildlife or they 
are broader Indian organizations. In that, they raise the 
capacity. They also inherently imbue far more capability to 
productively interact on a cooperative basis, whether it is 
collaboration that translates into cooperative agreements, 
memoranda of agreements.
    For instance, from personal experience, the Blackfeet Tribe 
got themselves involved with an international cooperative 
agreement which dealt with the Canadian Government, provincial 
and Federal; dealt with Canadian tribes; and dealt with the 
U.S. Fish and Wildlife Service. The national parks were also 
involved in this agreement. It all had to do with recovering 
the endangered bull trout in the St. Mary drainage of Montana. 
Through that cooperative effort, there existed very little 
funds. But through the united effort, much work has been able 
to be done. On a scientific basis, we were able to put together 
all of our information in one area so that we could effectively 
address that resource. So it continues to be a success up in 
Montana, and that is one example.
    The Acoma of New Mexico worked very cooperatively with both 
the U.S. Fish and Wildlife Service and Federal agency law 
enforcement, as well as the New Mexican entities. These type of 
cooperative efforts serve only to be enhanced. What we face 
today is nationally, regardless of who the entity is that is 
managing the fish and wildlife, is a steady decrease in the 
interest in the viability of our fish and wildlife resource. So 
tribes just look to try and play their part in that overall 
role of united effort to see the best interests of fish and 
wildlife.
    So that is how I see the priorities being directed as an 
endeavor for not only the tribes, but as they outreach to other 
entities as well.
    Senator Inouye. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    As I have listened to the testimony, it does seem to me 
that this bill is important because it gives the tribes an 
authoritative voice, though not a veto, in the formulation of 
Federal natural resource policy. I think that that is an 
authoritative voice that is long overdue in being heard on a 
government-to-government basis.
    So I had intended in my opening statement to express 
support for the Native American Fish and Wildlife Resources 
Management Act of 2004, and my able assistant has pointed out 
to me I expressed support for the current statute, the National 
Indian Forest Resource Management Act. So for the record, I 
correct that and simply conclude my part in the hearing today 
by saying I hope that this new Act will further add to the 
discussion of self-determination and self-governance of Native 
Americans.
    Thank you, sir.
    Senator Inouye. I thank you very much.
    This bill may have an impact upon every tribe in this 
Nation. Are there any exceptions that might be anticipated? Are 
your problems the same as the problems of the Northwest or the 
Southeast?
    Mr. Zorn. If I may, Mr. Chairman.
    Senator Inouye. Sure.
    Mr. Zorn. The tribes' situation with natural resource 
management and natural resource management activities are very 
similar, but each tribe has its own bundle of rights, 
responsibilities and sovereign prerogatives. As we know, a 
tribe retains that authority which they have not voluntarily 
relinquished, or Congress in the exercise of its plenary power 
has not taken away. Each treaty needs to be looked at in its 
own particular circumstance, own particular terms, own 
particular historical examination of what that treaty was 
intended to mean and what it actually does mean.
    So in that sense, there certainly are individual tribal 
needs that may be different from tribe to tribe. There 
certainly are different regional needs. I do think that that is 
one thing that we must pay attention to in this bill, that as 
you try to paint with as broad a stroke as possible to handle 
some of these very similar problems, that you make sure that no 
tribe's individual sovereign prerogatives are left out of the 
picture here in some way. I think some care is going to have to 
be given to that.
    Mr. New Breast. Mr. Chairman, just as we often see that 
good science provides the answer to many difficult questions, 
just as I mentioned earlier, the topic of fundamental fish and 
wildlife conservation management being the theme to direct 
that, despite the differences, if you will, inherent 
differences of tribes in regard to what their cultural 
situation is, their relationship to the resident habitat and 
the resources, that general theme will provide the guidance, 
the beacon that needs to come through and reach the needs of 
the tribes.
    Senator Inouye. I thank you, gentleman, very much for your 
contributions. May I assure everyone here that all of your 
prepared statements will be made part of the record.
    And before I forget, the record will be kept open until May 
31, so if you wish to make addendums or corrections, please 
feel free to do so.
    Our final panel consists of the first chief of Stevens, 
Stevens Village, AK, Randy Mayo, accompanied by the Natural 
Resource and Environmental Program director of Stevens Village, 
Dewey Schwalenberg; and the director of the Business and 
Sustainable Development Central Council Tlingit and Haida 
Tribes of Alaska, Juneau, AK, Gordon Jackson; and the president 
of the Inter-Tribal Bison Cooperative, Rapid City, SD, Ervin 
Carlson, accompanied by the Inter-Tribal Bison Cooperative of 
Rapid City, Fred Dubray.
    Mr. Mayo.

        STATEMENT OF RANDY MAYO, FIRST CHIEF OF STEVENS
          VILLAGE, AK, ACCOMPANIED BY DEWEY SCHWALEN-
          BERG, NATURAL RESOURCE/ENVIRONMENTAL PROGRAM
                            DIRECTOR

    Mr. Mayo. Thank you, Chairman Inouye, members of the 
committee, honored guests, for this opportunity to testify 
before you here in the oversight hearing on S. 2301, a 
discussion draft bill that would improve the management of 
Native American fish and wildlife and gathering, and for other 
purposes.
    I am honored by this invitation to present oral testimony 
to the committee. Our written testimony has already been 
submitted by our tribal natural resource director, Dewey 
Schwalenberg, seated here to my left.
    I speak today in support of this bill and on behalf of my 
215 tribal members, and for the other community residents of 
Stevens Village, who would stand to benefit from the resource 
management and protection that this bill will provide to my 
community.
    Stevens Village is located 90 air miles north of Fairbanks 
on the north bank of the Yukon River. There are 30 households 
in the village and 90 residents. Most are tribal members and 
shareholders in the Dinyee Native Village Corporation. I am the 
vice president of the Dinyee Corporation. The remainder of the 
tribal members reside in Fairbanks or other communities because 
they need to have work, which is difficult to find in the 
village.
    Many of our members would like to live in the village and 
most do use fish and wildlife and forestry resources from our 
traditional lands during certain seasons of the year. There are 
no roads to Stevens Village. Transportation is by small plane, 
by boat up the Yukon River from the Yukon River Bridge on the 
Dalton Highway, 27 miles downstream from the village, or by 
snow machine or dog sled to the bridge in the winter. Barges 
come up the river twice a year to deliver fuel and construction 
materials. Air freight for personal goods to the village is 45 
cents per pound. None of the houses have sewer and water, but 
we do have treated water and sewer to the school and water 
plant.
    The school has 13 students from preschool to 12th grade. 
The Council is the largest employer in the village and we have 
seven full-time workers and 12 to 15 seasonal workers. The 
tribal lands and natural resources program employs most of our 
workers for fisheries, wildlife, forestry and environmental 
projects. Without the resource program, the community would 
have little employment. Funding for these programs has been 
challenging to maintain. Periodic grants have kept the program 
going for the past six years, but permanent funding is 
necessary soon or we will lose this portion of our economy.
    Our people are very much dependent upon the salmon that 
comes up-river in the summer and on moose that live around the 
village. The moose population is at a very low level and we 
have taken steps to begin raising buffalo to supplement our 
meat supply.
    To provide the technical comments on this bill, I will ask 
Mr. Schwalenberg to use the rest of our time to highlight our 
technical testimony.
    Thank you.
    [Prepared statement of Mr. Mayo appears in appendix.]
    Senator Inouye. Mr. Schwalenberg.
    Mr. Schwalenberg. Thank you, Chief Mayo, and thank you, Mr. 
Chairman.
    Our written testimony will explain what type of programs 
that the tribe up in the Yukon River area actually undertakes. 
What I would like to talk a little about this morning is the 
genesis of where the tribal authority for managing resources 
comes from in Alaska.
    As you know, in the bill there is a title III section on 
Alaska Native Fish and Wildlife Programs, and I think a lot of 
people do not understand that each tribe in Alaska does have a 
constitution. The tribal government in Stevens Village's 
constitution was passed in 1939 and approved by the Secretary 
of Interior, and it was amended in 1990. Under the provisions 
of the constitution, we see that one of the critical 
responsibilities of tribal government is management of natural 
resources for and on behalf of the benefit of its people. So 
that is where the tribe assumes is authority to manage 
resources.
    Stevens Village is also a government in the town site and 
the only government, only municipal government, and therefore 
has responsibilities of managing resources and the well-being 
of its people in pretty much about 3,000 acres of land.
    So what type of management program the Stevens Village 
Council has put together has been one of managing the moose 
populations, wildlife, fisheries, environmental testing of its 
waters and its resources, and above all putting together 
employment opportunities for its people.
    So we serve as program director and managers to train local 
people in how to conduct research technician activities, how to 
collect traditional harvest data. We work cooperatively with 
the State of Alaska Department of Fish and Game and the U.S. 
Fish and Wildlife Service refuge program. We work cooperatively 
on aerial moose surveys. We did a northern pike radiotelemetry 
project for about 6 years that indicated there was negative 
impact on large quality fish populations, which in turn led to 
the State of Alaska Board of Fish making some regulatory 
changes that benefitted the tribes, its members and also the 
State residents.
    We do the same thing with the Subsistence Board for moose 
hunting regulations and the bear hunting regulations that the 
tribal government determined were necessary through our 
research, were taken to the Board of Subsistence. The Board of 
Subsistence passed those regulations.
    So the tribes in Alaska are not attempting to develop a 
brand new system. They are using the existing system out there 
that protects the resources. What we are asking for in this 
bill is the fact that the Federal Government recognize the 
contribution that the tribal governments are making and 
recognize the struggle that these tribal governments in Alaska 
are making, and hopefully we will be able to find some 
permanent funding so that these programs would be able to 
become more institutionalized in a cooperative manner with 
State and Federal.
    But in conclusion, what I would like to do is just tell you 
one quick anecdote an elder in the village told me when I 
questioned when I first showed up there 12 years ago. I 
questioned the management, whether people knew professional 
management, et cetera. I really did not know. I was naive. So 
one of the elders told me about an experience. He was up one of 
the tributary rivers in the late fall. The water levels had 
receded and there was a beaver dam with a beaver pool. He said, 
behind the beaver pool all the whitefish and the pike were 
trapped in that beaver pool. I said, well, what did you do? And 
he said, well, I opened it up so that they could get out.
    So people historically have known how to manage their 
resources. He opened that beaver dam up so those whitefish 
could get back to the main stem of the Yukon River and survive 
the winter, because back in the shallow waters of a beaver pond 
they are going to freeze to death over winter.
    It is just one of these anecdotes after another that 
indicate to me that tribes and the Native people of Alaska have 
always participated in resource management. It was a 
traditional sense of management, and that is what we have done 
in our program. We have incorporated those traditional values 
and management practices into our scientific programs, and that 
is why we feel they are so successful.
    So we are very supportive of this bill. One technical 
question I brought up in S. 2105 is the term ``Alaska Native 
fish and wildlife organizations.'' I noticed in our attempt to 
bring this bill before you, we have put Alaska Native Claims 
Settlement Act and we have put the Indian Self-Determination 
Act provisions together in the title III Alaskan section, so 
that all of those provisions together make this portion of the 
Act. I did notice one thing in section five where it says, the 
term ``Alaska Native fish and wildlife organization means 
commission authority or other entity chartered for the primary 
purpose.'' We believe strongly in the Indian self-determination 
that that should read, ``authority or other entity chartered by 
one or more tribes for the primary purpose.''
    If we do not keep the tribes involved in this explicitly, 
we are going to find out that the tribes will end up as normal 
not receiving any of the benefits of this act. The tribes can 
cooperate with their village corporations and regional 
corporations to conduct management activities, but we would 
like to see that tribal language in this bill.
    Thank you very much.
    [Prepared statement of Mr. Schwalenberg appears in 
appendix.]
    Senator Inouye. I thank you, sir.
    Mr. Jackson.

STATEMENT OF GORDON JACKSON, DIRECTOR, BUSINESS AND SUSTAINABLE 
DEVELOPMENT, CENTRAL COUNCIL TLINGIT AND HAIDA TRIBES OF ALASKA

    Mr. Jackson. Thank you very much, Mr. Chairman.
    My name is Gordon Jackson. I am the director of business 
and Sustainable Development for the Central Council of Tlingit 
and Haida Indians of Alaska, with 24,000 members located 
throughout the Pacific Northwest.
    I also provide staff support to the Southeast Alaska Inter-
Tribal Fish and Wildlife Commission. I am also the Chairman of 
the Board of Kake Travel Corporation.
    We have provided written testimony and rather than read it, 
I am just going to provide some information in supplement for 
the record. I think that a lot of folks that talked about the 
bill, I really appreciate the opportunity to be part of this. I 
have been in Portland and have spoken to various members of the 
group behind me by e-mail or by teleconference. I think that 
the bill has come a long ways. It is getting better every time 
a draft is developed. I think that by the time it gets through 
the whole process, I think it is going to be a very good piece 
of legislation.
    As the director of business and sustainable development in 
southeast Alaska, I find that job relatively tough. Over the 
last several years, we have developed economic summits in 
several communities in southeast Alaska from Prince of Wales 
Island to Angoon and Hoonah. We find a number of things 
relating to the needs of the communities almost the same. Some 
of the items that have been developed over the last several 
years is that we find that the logging economy is getting 
smaller and smaller. As the Native corporations complete the 
harvesting of their land, we have lost thousands of jobs in 
village Alaska. That is in contrast to the big boom of the 
1990's. Hundreds of people are out of work in the communities 
relating to logging.
    In addition to the downturn of the logging economy, there 
is a huge downturn in the fishing industry that continues in 
villages today with the loss of processors and markets, 
primarily due to the influx of farmed salmon throughout the 
world. Farmed salmon has taken over the market for wild salmon, 
and I think it has been devastating throughout the Pacific 
Northwest.
    There has been little penetration of tourism in rural 
communities in southeast Alaska, although there is going to be 
almost 900,000 off-loaded in Juneau, relatively little of them 
trickle in to the smaller communities of southeast Alaska. I 
think that the prospects of getting any kind of those jobs are 
really small.
    So the unemployment rate in smaller village Alaska is very 
high. The prospects for any kinds of huge economic development 
activity is very small.
    Because of the decline in the fishing community and the 
commercial fishing in our communities, and the need to address 
subsistence consistently in southeast Alaska, we in the Central 
Council developed a southeast Alaska Inter-Tribal Fish and 
Wildlife Commission. We wanted to address subsistence and 
commercial fishing. We patterned our organizational structure 
based on the Columbia River Inter-Tribal Fish Commission and 
Northwest Indian Fish Commission. All of our members joined 
this Commission by resolution, and have made this organization 
very strong and have upheld our responsibilities to address 
these many things.
    We have done a number of things over the last couple of 
years since the organization was organized. We have worked 
cooperatively with many organizations, including the Migratory 
Bird Council. Several years ago, the Migratory Bird Treaty 
organized a cooperative body that is composed of all of the 
regional village and regional tribal organizations, and the 
state and Federal Government. You have a great big cooperative 
body that figures out the seasons for taking of migratory birds 
up and down the Pacific Northwest and Alaska.
    We have addressed through cooperative associations the 
Marine Mammal Act, where members of the body of the association 
in Alaska addresses marine mammals up and down the coast of 
Alaska. We have been monitoring the Pacific Salmon Treaty. Lots 
of our fish originate from the Great Columbia River Basin. 
Earlier today you heard folks talking about spill over the 
Columbia River. That affects the fish for the tribes in Oregon 
and Washington. It also affects the return of the Chinook 
salmon in southeast Alaska, which come in great numbers and 
used to come in millions of numbers throughout the coast of 
southeast Alaska. Whatever happens on the Columbia River 
negatively also negatively affects the people in southeast 
Alaska.
    We have worked to develop a plan to work cooperatively with 
the State of Alaska. We have been monitoring the cruise ships 
that go through southeast Alaska that have been known to dump 
gray water throughout the interior surfaces of southeast Alaska 
that affect not only the wild salmon, but our subsistence way 
of life, so we are monitoring that very carefully.
    Addressing commercial fishing has been relatively rough. I 
grew up in that industry. In my short lifetime, I witnessed 
huge problems in the downfall of this industry. When I was 
young, that industry was the number one employer in southeast 
Alaska. Today, that is struggling. Last year, I provided on 
June 3 some really depressing figures relating to the downfall 
of that industry in southeast Alaska. The limited entry permit 
system came into existence in the 1970's. That provided the 
right for many of the people to fish in southeast Alaska. In 
the 1970's, the community of Kake received 29 limited entry 
permits. They have eight active permits now. The community of 
Angoon received 27 active permits. They now have one active 
permit. The community of Hoonah had 53 limited entry permits. 
They now have four active permits.
    There are few processors available in the villages, and 
this will not get any better this year, with two more 
processors announcing the fact that they are going to be 
leaving southeast Alaska. This is due to a whole bunch of 
things relating to the market in wild salmon. Like I said 
earlier, the inundation of farmed salmon throughout the world 
has had a devastating impact on the marketing of wild salmon in 
Alaska.
    Another thing that has been really affecting the fishing 
community in southeast Alaska is the loss of halibut IFQs. One 
huge example of this loss is that in the community of Kake, the 
National Marine Fisheries Service told us last week when we 
were working on a piece of legislation in the State legislature 
that the community of Kake started out with 300,000 pounds of 
halibut IFQ, with the IFQ ability to sell those IFQs that came 
along with the rule and regulation, they now have only 100,000 
pounds. It basically means 200,000 pounds of halibut has been 
lost through the sale of the individual fishing quota for 
halibut.
    Now, the National Marine Fisheries Service through the 
North Pacific Fisheries Management Council has adopted a rule 
and regulation that allows communities to buy as a first right 
any halibut or black cod quota that leaves the community. We 
have been working on ways to implement that and have worked on 
loans relating to it because we feel very strongly about the 
local control of fisheries. I think that that will do a heck of 
a lot to keep the halibut quota within the community.
    I think that, in looking at a lot of the provision of S. 
2301, I think that a lot of it will address many of the items 
relating to what is needed in the Pacific Northwest, for 
instance, marketing of Alaska and Pacific Northwest wild 
salmon.
    The markets have been in a dump the last 5 to 10 years. The 
loss of that market to farmed salmon is a direct result of a 
number of things, including not only marketing, but also 
different value-added products and other things like keeping 
the fish cold and making sure that the quality is good. But 
that provision, I think, is great. I think that anything that 
relates to marketing of salmon is good. The more markets we 
open up domestically on a national level and international 
level I think is pretty good.
    S. 2301 is a good step toward self-sufficiency and self-
determination. Mr. Chairman, I thank you very much for giving 
me the opportunity to comment on this. I think as we go through 
the process it will be much improved. We look forward to its 
implementation and enactment.
    Thank you very much.
    [Prepared statement of Mr. Jackson appears in appendix.]
    Senator Inouye. I thank you very much, Mr. Jackson.
    And now may I call on President Carlson.

   STATEMENT OF ERVIN CARLSON, PRESIDENT, INTER-TRIBAL BISON 
  COOPERATIVE, ACCOMPANIED BY FRED DUBRAY, INTER-TRIBAL BISON 
                  COOPERATIVE, RAPID CITY, SD

    Mr. Carlson. Good morning, Honorable Senator. I thank you 
for allowing me here to speak and present this morning.
    For the record, my name is Ervin Carlson. I am the 
president of the Inter-Tribal Bison Cooperative, a nonprofit 
organization. We are comprised of 53 federally recognized 
tribes across 18 States. I am honored to present this testimony 
on behalf of the ITBC members in support of passage of S. 2301.
    The ITBC commends the committee's efforts to finally 
acknowledge and reaffirm the special relationship that exists 
between Native Americans and the fish and wildlife of this 
country.
    Native Americans have long believed they exist as co-owners 
of this Earth, with fish and wildlife. S. 2301 provides Native 
Americans an opportunity to develop the capacity and access to 
resources to protect, preserve and enhance fish and wildlife 
resources, including buffalo. While ITBC strongly supports and 
endorses S. 2301 as it applies to all fish and wildlife 
resources, my following remarks are specific to buffalo as 
ITBC's primary objective is to assist tribes with restoring and 
enhancing buffalo on Indian lands.
    Historians estimate that approximately 30 million to 80 
million buffalo thrived on the Great Plains of the United 
States for many centuries, before they were hunted by the non-
Indian to near-extinction in the 1800's. Native Americans of 
the Great Plains thrived on the abundant buffalo prior to being 
relocated and restricted to Indian reservations.
    For many generations, buffalo ensured the survival of 
Native Americans of the Great Plains. Naturally, this 
coexistence of Native Americans and buffalo on the Great Plains 
resulted in the longstanding spiritual and cultural connection 
between Native Americans and buffalo.
    Buffalo provided Native Americans with food, shelter, 
clothing and essential tools, and ensured the continuance of 
their subsistence way of life, resulting in a self-sufficient 
existence that was devastated along with the destruction of the 
buffalo herds.
    The lifestyle of the tribes dominated by interaction with 
the natural world was profoundly impacted by the needless loss 
of the buffalo that most tribes still consider to be a 
holocaust. While Native Americans of the Great Plains have been 
forced away from their customary subsistence lifestyle, their 
profound respect for buffalo remains. Buffalo remains an 
integral part and component of the cultural and religious 
beliefs and ceremonies of Native Americans.
    The passage of time has not diminished the spiritual and 
cultural connection that we Native Americans have with buffalo, 
and a strong desire exists among Native Americans to repopulate 
Indian lands with healthy buffalo. In 1992, seven tribes 
committed to this, to preserving the sacred relationship 
between buffalo and Native Americans, and established the ITBC 
as an effort to restore buffalo to Indian lands.
    ITBC focused its restoration efforts on reservation lands 
that often did not sustain other economic or agricultural 
efforts. Lands that were unproductive for farming or raising 
livestock were and still are suitable for buffalo. ITBC began 
actively restoring buffalo to Indian lands upon the receipt of 
limited grant funding from the Department of the Interior.
    The organization began with seven founding tribes and 
approximately 1,500 animals. Today, 53 tribes have joined ITBC 
and 35 of those tribes have various sizes of herds, with 
approximately now 15,000 animals. However, the restoration 
efforts remain in the infancy stages as the buffalo herds have 
not yet developed to a degree to overcome the loss to the 
tribal cultures as many herds are comprised of very few animals 
and many herds remain vulnerable to limited resources for 
proper management.
    Many ITBC member tribes desire to raise buffalo only as a 
spiritual and cultural effort. These tribes wish to cultivate 
their religious and spiritual connections to the buffalo and 
are not interested in commercial marketing of the buffalo for 
economic development efforts. However, some of these tribes are 
interested in the harvest of buffalo only for the purpose of 
feeding tribal members. Therefore, while ITBC's restoration 
efforts remain paramount, numerous ITBC member tribes that have 
maintained viable buffalo herds are now interested in 
developing the means to provide buffalo to Native American 
populations as a healthy food source.
    Native Americans currently suffer from the highest rates of 
type 2 diabetes and they also suffer at extreme rates from 
cardiovascular and various other diet-related diseases. Studies 
indicate that type 2 diabetes commonly emerges when a 
population undergoes radical diet changes. Native Americans 
have been forced to abandon traditional diets rich in wild 
game, buffalo and plants. Based on current data, it is safe to 
assume that disease rates of Native Americans are directly 
impacted by a genetic inability to effectively metabolize 
modern foods. Range-fed buffalo meat is low in fat and 
cholesterol and is compatible to the genetics of Indian people. 
ITBC strives to develop an educational initiative to 
reintroduce buffalo into the diets of Native Americans to 
combat the high rates of diet-related diseases.
    With that history as to the buffalo there, I would also 
like to talk about our support for S. 2301. ITBC supports the 
passage of Federal legislation that acknowledges the 
significant relationship between Native Americans and the fish 
and wildlife resources located on Indian lands. Native 
Americans coexisted with fish and wildlife in this country for 
many centuries. The rights of tribes to continue with hunting, 
fishing and gathering wildlife resources has been recognized 
and guaranteed in Indian treaties between tribes and the United 
States.
    S. 2301 will acknowledge the inherent sovereign authority 
of tribes to manage fish and wildlife resources within their 
respective jurisdictions, and provide tribes with the means to 
develop and achieve meaningful management objectives. 
Legislation specifically authorizing tribes to manage fish and 
wildlife resources is consistent with the promotion of tribal 
self-determination.
    Additionally, ITBC believes S. 2301 will foster the sound 
management of tribal fish and wildlife resources, that in turn 
will have a positive effect on tribal economies. S. 2301 
solidifies the trust duty of the United States to ensure proper 
management of tribal fish and wildlife resources.
    S. 2301 will provide critical funding to allow Native 
American tribes to investigate and inventory fish and wildlife 
resources, and then to develop the capacity to effectively 
manage those resources. Upon proper identification of 
resources, tribes will be empowered to address the protection, 
conservation and enhancement of fish and wildlife. Presently, 
many tribes have not developed regulatory schemes for their 
fish and wildlife resources such as buffalo, and do not have 
the trained personnel to best protect these resources. S. 2301 
will allow tribes to develop effective management plans that 
will maximize the production of fish and wildlife, including 
buffalo, to better meet tribal subsistence, ceremony, 
recreational and commercial needs.
    Additionally, S. 2301 will create employment opportunities 
for tribal members in wildlife management positions. S. 2301 
also establishes a framework for the long-range goal of some 
ITBC member tribes to commercially market buffalo meat through 
the authority, to develop certification standards, and 
marketing initiatives. ITBC member tribes have been frustrated 
with the inability to coordinate with the Secretary of 
Agriculture to furnish tribally produced, range- fed buffalo to 
the food distribution program for Indian reservations. S. 2301 
would allow ITBC member tribes to develop an alternative, 
tribally controlled program to distribute natural range-fed 
buffalo to Native American populations.
    Additionally, S. 2301 requires the Secretary of Agriculture 
to consult with tribes to allow tribes meaningful participation 
in USDA programs and to improve the diet-related health 
conditions of Indian people.
    Finally, S. 2301 would allow ITBC and its member tribes the 
resources to offer meaningful alternatives to the needless 
killing of Yellowstone-area buffalo.
    In conclusion, the passage of S. 2301 will ensure that the 
critical efforts of ITBC to restore buffalo to Indian lands 
will continue. Currently, ITBC has been funded only by yearly 
grants with no assurance of continuous funding. Although ITBC 
has made significant and admirable progress to restore buffalo 
to Indian lands, the herds remain in stages of infancy. 
Consistent and adequate funding is critical to continue with 
the restoration efforts.
    S. 2301 will allow tribes to achieve the goal of providing 
healthy range-fed buffalo to American Indian populations to 
combat diet-related diseases. Most importantly, S. 2301 will 
allow tribes to restore and manage buffalo herds on their 
tribal lands in a manner that is compatible with the economic 
goals and the spiritual and cultural beliefs of the tribes.
    ITBC believes that this legislative effort is long overdue 
and strongly urges its passage. And also we would urge to 
incorporate some appropriate language in there to ensure that 
the buffalo are protected and managed in a manner compatible to 
the tribal interests.
    Thank you.
    [Prepared statement of Mr. Carlson appears in appendix.]
    Senator Inouye. I thank you very much, Mr. Carlson.
    Chief Mayo, I have listened to your testimony very 
carefully. You speak of your village being landlocked during 
the wintertime. There is no highway connecting you to the rest 
of Alaska. There is no air base and a barge goes up there twice 
a year, and they charge you 45 cents a pound, and your 
unemployment is high. How many people live in Stevens Village?
    Mr. Mayo. Probably about 90 to 100, give or take the 10 
people that go back and forth or so.
    Senator Inouye. So the population of your community is 90 
people?
    Mr. Mayo. Just in our community, but we have a great many 
tribal members living all over, Fairbanks, Anchorage, down in 
the Lower 48, that because of economic and educational 
opportunities have had to move.
    Senator Inouye. And you believe that this measure will 
address your conditions?
    Mr. Mayo. I believe it would really help in rebuilding our 
community through the different aspects that this bill would 
do. Even though we sound very remote and a very small 
community, with the coming of the oil pipeline and road, that 
caused a great impact by people coming in to our area and 
competing for a very limited subsistence resource.
    In the first place, we have to develop a resource program 
there, and also this would really help us, and the educational 
and training aspects of providing employment, but also get our 
elders involved to start training and give insight to our 
younger tribal members in the cultural and spiritual aspects in 
our relationship with the land and animals around us.
    It would really give them some identity and a foundation to 
get out there in the world and seek higher education to start 
learning the western biological aspects of resource management. 
And also, in the ways of some of the marketing of seafood and 
bison section of it, that eventually we have to start becoming 
self-sufficient. We see that down the road this would provide 
culturally relevant economic development opportunities for us.
    I also serve as the Chairman of the Council of Athabascan 
Tribal Governments, a 10-member inter-tribal consortium. In 
fact, I recognize two tribal members that have gone out and 
have come back to the communities and are offering some of 
their educational training to the efforts of looking after our 
natural resources and lands surrounding our communities. If I 
could recognize Craig Fleener and Ben Stevens here, if they are 
still here. They had to leave to another meeting.
    We also have a lot of our younger high school kids that are 
very interested. They want to stay at home, but the 
opportunities are very limited. We are entering a new economy 
now, and that being a more and more cash-based economy. For 
years, like I mentioned, we have to develop a program because 
of the impacts coming off of this oil pipeline road. Even in 
the wintertime, a lot of recreationists and just competition 
for a limited resource already that a lot of our people do want 
to move back.
    I myself, my family had to move for economic and 
educational reasons, and after being out in the world quite a 
few years, I found my way back home and I am now raising my 
family in our ancestral homeland. We had cobbled our resource 
program together with an unsteady funding base for quite a few 
years now, with the help of our Director who is also trained, 
and other younger tribal members, we jus get by on whatever we 
can raise to ensure that we look out for these resources in the 
most traditional manner in contemporary times as possible, and 
reaffirm our relationship with these animals through our tribal 
governance.
    We have been for many years working as cooperative managers 
with the Fish and Wildlife Service. We are located in the Yukon 
Flats National Wildlife Refuge, so we work as cooperative 
managers with these folks, and also with the state Department 
of Fish and Game, and as Dewey here had mentioned, that we work 
within the existing system up there to affect regulation and 
change based on the collection of scientific data. In this way, 
we try to insert a lot of our traditional knowledge and 
science, just our understanding of the resources and lands 
around us, through our program here.
    So I see this would really help us out in the long run.
    Senator Inouye. I thank you very much, Chief.
    Mr. Schwalenberg, what role do Alaska Natives have at this 
moment in developing regulatory programs to manage fish and 
wildlife programs? Do they have any role?
    Mr. Schwalenberg. Currently, the role of Alaska Natives in 
the management regime is an advisory role to the existing Game 
Board of Fish through an advisory council or through the 
subsistence board through rural advisory councils. Native 
people also form co-management entities with Federal agencies 
such as the Whaling Commission or the Sea Harbor Commission, 
the Sea Otter Commission, where the agencies work directly with 
Native subsistence users to form these working groups. And then 
the management that is developed through those groups is 
implemented by the state and Federal agencies.
    The tribes themselves have no position on any of these 
commissions or entities. Tribal governments do not have a seat 
at the table, but Native people do. So the regime is pretty 
much involved Native people, but has ignored the tribal 
governments and their specific governing role.
    Senator Inouye. But tribal people have what role? Advisory 
only?
    Mr. Schwalenberg. Yes; everybody is in an advisory capacity 
within the existing regime.
    Senator Inouye. Would this change the situation, this bill?
    Mr. Schwalenberg. We do not believe that it is going to 
change that situation because the tribes are not intending to 
exercise any authority over the State or Federal management of 
resources. The tribes are intending to manage resources for the 
benefit of their people and they will do it in a cooperative 
manner because, as an example, the corporation lands, Stevens 
Village has a land-use plan and has a land-use agreement with 
its village corporation. The village corporation has 136,000 
acres around the village, and the tribe serves as the managing 
entity that manages the resources within those corporation 
lands. The Doyan Regional Corporation throughout the Yukon 
Flats has about 2.4 million acres of lands, and we work 
cooperatively with them.
    So the bill does not recognize any authority that the 
tribal governments do not currently have, nor does it diminish 
any of the authority that the tribal government has because of 
its sovereignty and its constitutional provisions. So the 
Government recognizes that the lands that it has authority on, 
and where it does not have legal authority, it develops 
cooperative management agreements and then participates in the 
management.
    Senator Inouye. Thank you very much.
    Mr. Jackson, you spoke of your high unemployment rates and 
that fish and wildlife, fishing especially, may be the only 
source of food and employment you have. What has been your 
experience with co-management agreements regarding the 
management of fish and wildlife?
    Mr. Jackson. Our experience has been very positive. At the 
table, for instance, at the Migratory Bird Treaty, the state 
and Federal Government work with tribal governments in the 
development of a plan relating to migratory birds in Alaska. 
And we developed rules and regulations relating to it. We 
worked all these policies out amongst one another. I think it 
works very good in the case, along with marine mammals.
    In many cases, many communities initiate these kind of 
things. For instance, last year I could tell you about Kanalku 
Creek on Admiralty Island in Southeast Alaska, the runs of red 
salmon, sockeye salmon were going low. They decided at the 
local level that they would not take any of those sockeye 
salmon until the runs came back. With the state and Federal 
Government, they developed a plan, initiated by local folks 
that would do that. Everybody has basically watched that creek 
and managed it together.
    So I think in my experience in Alaska, it has been real 
positive if everybody understands their role. I know there has 
been a lot of debate relating to that. It only breaks down when 
one party does not understand their duties and 
responsibilities. As long as everybody understands their role, 
I think it works fairly decently and you are able to work out 
the kinks.
    Senator Inouye. Do you believe that this legislation would 
encourage the continuation of such co-management agreements?
    Mr. Jackson. I think it would. There is adequate provision 
in the legislation that allows for cooperative agreements among 
everyone.
    Senator Inouye. Thank you.
    Mr. Carlson, you spoke of your buffalo herd increasing from 
1,500 to 15,000, and you mentioned that you were receiving a 
grant per year. How much do you receive?
    Mr. Carlson. Our funding is through the Department of the 
Interior. In the past year, we received $2.2 million, but this 
is funding that is just yearly funding and subject to change at 
any time or not be there. That is a real problem to ITBC.
    Senator Inouye. So you received $2.6 million last year?
    Mr. Carlson. $2.2 million.
    Senator Inouye. $2.2 million. What would you need to 
increase your herd further?
    Mr. Carlson. We have 53 member tribes as of now, and just 
to speak on the money that we need, the $2.2 million sounds 
like maybe a lot of money, but in fact when it is distributed 
out between the needs of the 53 tribes, it does not cover that. 
I believe a two percent increase would help the tribes to get 
the herds to a sustainable amount.
    Senator Inouye. In order to implement the provisions of 
this measure, obviously it would necessitate funds. I would 
like to receive from all of the witnesses today some indication 
of what level of funding would be necessary to reasonably put 
this bill into effect. We would like to know what we are 
talking about as to what the level of funding may look like. I 
am certain my colleagues would like to know.
    Yes, sir?
    Mr. Carlson. As to ITBC and to the restoration efforts, I 
would like to answer the question that was asked a little 
earlier about the funding, and also to this which you are 
asking now. With ITBC, we take the proposals from those 53 
tribes, and they put down their needs of funding that they 
need. Currently, that need would be $20 million. So the $2.2 
million is far below the $20 million that is needed.
    Senator Inouye. With that, I would like to thank all of you 
for your testimony today. It has been extremely helpful. As I 
indicated earlier, the record will be kept open until May 31. 
If you have any addendums or corrections to make, please submit 
them to the committee.
    With that the hearing is adjourned.
    [Whereupon, at 12:08 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


   Prepared Statement of Hon. Gordon Smith, U.S. Senator from Oregon

    Thank you, Mr. Chairman. I would like to thank our witnesses for 
testifying today on the Native American Fish and Wildlife Resources 
Management Act of 2004. I hope today's hearing will further add to the 
discussion of self-determination and self-governance.
    Effective development and poverty alleviation often hinges on 
improved tribal control. Empowering tribes with culturally appropriate 
means to enhance and maximize tribal capability and capacity in 
managing fish and wildlife resources is in the interest of all 
Americans. I am committed to supporting the economic development of 
Native communities through such economic opportunities as natural 
resource development and the conservation and management of fish and 
wildlife resources.
    Tribes have a close relationship with fish and wildlife that goes 
much further than the Federal stewardship. Indian people must live 
with- the consequences of their action or inaction. This intimacy has 
built strong cultural and traditional ties to fish and wildlife that 
have existed for thousands of years. Thus, tribes are much better able 
to manage their resources.
    This legislation is an excellent step toward decentralization of 
Federal control to tribal management. The National Indian Forests 
Resource Management Act [NIFRMA] of 1990 is an excellent precedent to 
the benefits of such decentralization. Tribes today manage their own 
forests at such an innovative and sustainable level that many are 
entering into stewardship agreements to help manage our national 
forests with the U.S. Forest Service.
    Tribes have only been able to develop such expertise in managing 
their resources with the help of such pioneering legislation as NIFRMA. 
Today's hearing will provide insight into Native American Fish and 
Wildlife Resource Management Act of 2004 as another excellent piece of 
legislation toward self-determination and economic opportunity for 
Native Americans.
    Mr. Chairman, thank you for holding this hearing and I most 
interested in today's testimonies. I look forward to working with 
tribal leaders, administrators, and other stakeholders in achieving a 
better management of Native American fish and wildlife resources. Thank 
you.

                                 ______
                                 

   Prepared Statement of Ervin Carlson, President InterTribal Bison 
                              Cooperative

    Good Morning, Honorable members of the Senate Committee on Indian 
Affairs. My name is Ervin Carlson and I am the president of the 
InterTribal Bison Cooperative [ITBC], a nonprofit organization 
comprised of 53 federally recognized tribes across 18 States of the 
United States. I am honored to present this testimony on behalf of the 
ITBC member tribes in support of passage of S. 2301. ITBC commends this 
committee's efforts to finally acknowledge and reaffirm the special 
relationship that exists between Native Americans and the fish and 
wildlife of this country. Native Americans have long believed they 
exist as co-owners of this earth with fish and wildlife. S. 2301 
provides Native Americans an opportunity to develop the capacity and 
access the resources to protect, preserve and enhance fish and wildlife 
resources including buffalo. While ITBC strongly supports and endorses 
S. 2301, as it applies to all fish and wildlife resources, my following 
remarks are specific to buffalo as ITBC's primary objective is to 
assist tribes with restoring and enhancing buffalo on Indian lands.
    Historians estimate that approximately 30 to 80 million Buffalo 
thrived on the great plains of the United States for many centuries 
before they were hunted by the non-Indian to near extinction in the 
1800's. Native Americans of the Great Plains thrived on the abundant 
buffalo prior to being relocated and restricted to Indian reservations. 
For many generations, buffalo insured the survival of Native Americans 
of the Great Plains. Naturally, this co-existence of Native Americans 
and buffalo on the Great Plains resulted in the longstanding spiritual 
and cultural connection between Native Americans and buffalo. Buffalo 
provided Native Americans with food, shelter, clothing and essential 
tools and insured the continuance of their subsistence way of life 
resulting in a self sufficient existence that was devastated along with 
the destruction of the buffalo herds. The lifestyle of the Tribes, 
dominated by interaction with the natural world, was profoundly 
impacted by the needless loss of the buffalo that most Tribes still 
consider to be a holocaust.
    While Native Americans of the Great Plains have been forced away 
from their customary subsistence lifestyle, their profound respect for 
buffalo remains. Buffalo remain an integral component of the cultural 
and religious beliefs and ceremonies of Native Americans.
    1 The passage of time has not diminished the spiritual and cultural 
connection between Native Americans and buffalo and a strong desire 
exists among Native Americans to repopulate Indian lands with healthy 
buffalo.
    In 1992, seven tribes, committed to preserving the sacred 
relationship between buffalo and Native Americans established the ITBC 
as an effort to restore buffalo to Indian lands. ITBC focused its 
restoration efforts on reservation lands that often did not sustain 
other economic or agricultural efforts. Lands that were unproductive 
for farming or raising livestock were and still are suitable for 
buffalo. ITBC began actively restoring buffalo to Indian lands upon the 
receipt of limited grant funding from the Department of the Interior. 
The organization began with the 7 founding tribes and approximately 
1,500 animals. Today, 53 tribes have joined ITBC, 35 of them have 
buffalo herds of various sizes with a total of approximately 15,000 
animals. However, the restoration efforts remain in infancy stages, as 
the buffalo herds have not yet developed to a degree to overcome the 
loss to the tribal cultures, as many herds are comprised of very few 
animals and many herds remain vulnerable due to limited resources for 
proper management.
    ITBC's primary focus remains on the restoration of buffalo to those 
Indian reservation lands that can sustain them to reestablish the 
sacred relationship between tribes and buffalo. Although ITBC has been 
successful in its 10 years of existence with restoring buffalo in 
limited numbers to some Indian lands, many other tribes desire the 
means to establish sound buffalo herds, but lack the resources to 
fulfill that desire.
    Many ITBC member tribes desire to raise buffalo only as a spiritual 
and cultural effort. These tribes wish to cultivate their religious and 
spiritual connections to the buffalo and are not interested in 
commercial marketing of the buffalo for economic development efforts. 
However, some of these tribes are interested in the harvest of buffalo 
only for the purpose of feeding tribal members. Therefore, while ITBC's 
restoration efforts remain paramount, numerous ITBC member tribes that 
have maintained viable buffalo herds are now interested in developing 
the means to provide buffalo to Native American populations as a 
healthy food source.
    Native Americans currently suffer from the highest rates of Type 2 
diabetes and they also suffer at extreme rates from cardio vascular and 
various other diet-related diseases. Studies indicate that Type 2 
diabetes commonly emerges when a population undergoes radical diet 
changes. Native Americans have been forced to abandon traditional diets 
rich in wild game, buffalo, and plants. Based on current data, it is 
safe to assume that disease rates of Native Americans are directly 
impacted by a genetic inability to effectively metabolize modern foods. 
Range fed buffalo meat is low in fat and cholesterol and is compatible 
to the genetics of Indian people. ITBC strives to develop an 
educational initiative to reintroduce buffalo into the diets of Native 
Americans to combat the high rates of diet-related diseases.
    Additionally, ITBC strives to develop processes to facilitate 
providing tribally raised range-fed buffalo to Native Americans 
dependent on Federal food distribution programs. Currently, buffalo 
meat provided to Native Americans living on Indian reservations is 
often not natural range fed buffalo but grain-fed buffalo raised by 
non-Indians. Grain feeding buffalo compromises the health benefits of 
the buffalo food products. Without adequate funding, ITBC cannot insure 
that Native American populations are provided range fed buffalo 
produced by Native American tribes.
    In addition to buffalo restoration and providing range-fed buffalo 
to Native American populations as a healthy food source, some ITBC 
member tribes are interested in utilizing buffalo for tribal economic 
development efforts. Thus, ITBC has now undertaken efforts to, insure 
that ITBC member tribes have opportunities to develop economically 
sustainable buffalo herds through the development of marketing 
initiatives. The current sizes of Tribal buffalo herds limit achieving 
economic sustainability of the herds and of the buffalo projects 
providing tribes with economic benefit. However, with adequate funding 
to develop sustainable herds, commercial marketing of buffalo remains 
an important goal for many ITBC member tribes.
    Since its inception in 1992, ITBC has participated in the 
longstanding debates of the Greater Yellowstone Inter-Agency 
Brucellosis Committee [GYIBC], an organization established to address 
the risk of Yellowstone National Park buffalo transmitting brucellosis 
to livestock. Yellowstone National Park buffalo possess pure bison 
bison genus genetics, unlike other North American strains that indicate 
cross-breeding with cattle. ITBC desires to transfer excess Yellowstone 
buffalo to tribal lands as part of ITBC's restoration efforts. However, 
Yellowstone buffalo have been determined to be at risk of brucellosis 
and the current policy of the GYIBC has been to kill buffalo that 
wander out of the Yellowstone Park for feeding purposes.
    ITBC has recently obtained a non-voting seat on the GYIBC with the 
intention of supporting alternatives to address the Yellowstone buffalo 
brucellosis concern including the development of more effective 
vaccinations and quarantine facilities for testing and treatment. ITBC 
remains hopeful that Yellowstone buffalo, upon successful treatment to 
diminish brucellosis concerns, may be transferred to tribal lands.
    ITBC supports the passage of Federal legislation that acknowledges 
the significant relationship between Native Americans and the fish and 
wildlife resources located on Indian lands. Native Americans co-existed 
with fish and wildlife in this country for many centuries. The rights 
of tribes to continue with hunting, fishing, and gathering wildlife 
resources has been recognized and guaranteed in treaties between tribes 
and the United States. S. 2301 will acknowledge the inherent sovereign 
authority of tribes to manage fish and wildlife resources within their 
respective jurisdictions and provide tribes with the means to develop 
and achieve meaningful management objectives.
    Legislation specifically authorizing tribes to manage fish and 
wildlife resources is consistent with the promotion of tribal self-
determination. Additionally, ITBC believes S. 2301 will foster the 
sound management of tribal fish and wildlife resources that in turn 
will have a positive effect on tribal economies. S. 2301 solidifies the 
trust duty of the United States to insure proper management of tribal 
fish and wildlife resources.
    S. 2301 will provide critical funding to allow Native American 
tribes to investigate and inventory fish and wildlife resources and 
then to develop the capacity to effectively manage those resources. 
Upon proper identification of resources, tribes will be empowered to 
address the protection, conservation and enhancement of fish and 
wildlife. Presently, many tribes have not developed regulatory schemes 
for their fish and wildlife resources, such as buffalo, and do not have 
the trained personnel to best protect these resources. S. 2301 will 
allow tribes to develop effective management plans that will maximize 
the production of fish and wildlife, including buffalo, to better--meet 
tribal subsistence, ceremonial, recreational and commercial needs. 
Additionally, S. 2301 will create employment opportunities for Tribal 
members in wildlife management positions.
    S. 2301 also establishes a framework for the long-range goal of 
some ITBC member tribes to commercially market buffalo meat through the 
authority to develop certification standards and marketing initiatives. 
ITBC member tribes have been frustrated with the inability to 
coordinate with the Secretary of Agriculture to furnish tribally 
produced range-fed buffalo to the Food Distribution Program for Indian 
reservations. S. 2301 would allow ITBC member tribes to develop an 
alternative tribally controlled program to distribute natural range fed 
buffalo to Native American populations. Additionally, S. 2301 requires 
the Secretary of Agriculture to consult with tribes to allow tribes 
meaningful participation in USDA programs and improve the diet related 
health conditions of Indian people.
    Finally, S. 2301 would allow ITBC and its member tribes the 
resources to offer meaningful alternatives to the needless killing of 
Yellowstone Area buffalo.
    Passage of S. 2301 will insure that the critical efforts of ITBC to 
restore buffalo to Indian lands will continue. Currently, ITBC has been 
funded only by yearly grants with no assurance of continuous funding. 
Although ITBC has made significant and admirable progress to restore 
buffalo to Indian lands, the herds remain in stages of infancy and 
consistent and adequate funding is critical to continue with 
restoration efforts. S. 2301 will allow Tribes to achieve the goal of 
providing healthy range-fed buffalo to American Indian populations to 
combat diet related diseases. Most importantly, S. 2301 will allow 
Tribes to restore and manage buffalo herds on their Tribal lands, in a 
manner that is compatible with the economic goals and the spiritual and 
cultural beliefs of the tribes.
    ITBC believes this legislative effort is long overdue and strongly 
urges passage.

                                 ______
                                 

  Prepared Statement of Randy Mayo, First Chief, Stevens Village IRA 
                                Council

    Chairman Inouye, members of the committee honored guests, thank you 
for this opportunity to testify before you during the oversight hearing 
on S. 2301, a discussion draft bill that would improve the management 
of Native American fish and wildlife and gathering, and for other 
purposes. I am honored by this invitation to present oral testimony to 
the committee. Our written testimony has already been submitted by our 
tribal natural resource director, Dewey Schwalenberg seated here to my 
right. I speak today in support of the this bill in behalf of my 215 
tribal members and for the other community residents of Stevens Village 
who stand to benefit from the resource management and protection that 
this bill will provide to my community. Stevens Village is located 90 
air miles North of Fairbanks, AK on the North bank of the Yukon River. 
There are 30 households in the village and 90 residents. Most are 
Tribal members and share-holders in the Dinyee Native Village 
Corporation. I am the vice president of the Dinyee Corporation. The 
remainder of the tribal members reside in Fairbanks or other 
communities because they need to have work which is difficult to find 
in the village. Many of our members would like to live in the village 
and most do use fish, wildlife, and forestry resources from our 
traditional lands during certain seasons of the year. There are no 
roads to Stevens Village. Transportation is by small plane, by boat up 
the Yukon River from the Yukon River Bridge on the Dalton Highway 27 
miles down stream from the village or by snow machine or dog sled to 
the Bridge in the winter. Barges come up the River twice a year to 
deliver fuel and construction materials.
    Air freight for personal goods to the village is 45 cents per 
pound. None of the houses have sewer and water but we do have treated 
water and sewer to the school and water plant. The school has 13 
students from pre-school to 12th grade. The Council is the largest 
employer in the village and we have 7 full-time workers and 12-15 
seasonal workers. The tribal Lands and natural resource program employs 
most of our workers for fisheries, wildlife, forestry, and 
environmental projects. Without the resource program the community 
would have little employment. Funding for these programs have been 
challenging to maintain. Periodic grants have kept the program going 
for the past 6 years but permanent funding is necessary, soon or we 
will loose this portion of our economy. Our people are very much 
dependant upon the Salmon that comes up-river in the summer and on 
moose that live around the village. The moose population is at a very 
low level and we have taken steps to begin raising buffalo to 
supplement our meat supply.
    To provide the technical comments on the bill I will ask Mr. 
Schwalenberg to use the rest of our time to highlight our technical 
testimony.

                                 ______
                                 

   Prepared Statement of Ira New Breast, Executive Director, Native 
                   American Fish and Wildlife Society

    Mr. Chairman, Vice Chairman and distinguished committee members:
    My name is Ira New Breast. I am the executive director of the 
Native American Fish and Wildlife Society and an enrolled member of the 
Blackfeet Tribe of Montana. I would like to respectfully thank you for 
the opportunity to present testimony to the Senate Committee on Indian 
Affairs on the development of the ``Native American Fish and Wildlife 
Management Act of 2004.'' I am grateful that the discussion draft Bill 
has been presented to tribes, tribal organizations and others for 
comments and appreciate this committee's willingness to listen to and 
work with such entities to make this legislation the best that it can 
be.
    The society is a national non-profit organization, established in 
1982, whose mission is to assist Native American and Alaska Native 
Tribes with the conservation, protection and enhancement of their fish, 
wildlife, habitat and cultural resources. The Society strives to assist 
tribes in their development and implementation of sound laws, 
regulations, policies and practices that preserve and protect fish and 
wildlife resources, are consistent with and enhance cultural traditions 
and values and improve the general welfare of Indian peoples through 
fish and wildlife related educational activities.
    As a national organization the Society has a unique national 
perspective, all tribes have distinctive perspectives and interests 
with a variety of fish and wildlife resources, diverse habitats and 
signature approaches to management. Our organization is not a 
substitute for important government-to-government relationships with 
tribes, we do offer forums in which Federal agencies can initiate 
outreach to that end. The Society does not act in representation or 
proxy of individual tribes. The Society does have mechanisms to 
facilitate astute tribal deliberation to planning, development and 
operational efforts surrounding fish and wildlife in Indian country.
    As an individual, I have 16 years experience working in the field 
managing fish and wildlife. For 12 of those years my work activities 
have included nearly all aspects of tribal fish and wildlife 
conservation management, they extend into administration, law 
enforcement, policy and regulatory development, fund raising, and local 
to national representation. My experience has led me to witness first-
hand the in depth needs that exist and depend in order to support 
management by tribes for their fish and wildlife resource. From this 
grassroots perspective I recall the history of the proposed legislation 
and continue to hope for the original purpose and intent.
    While development of the Native American Fish and Wildlife 
Resources Management Act is a strong statement of the Federal 
Government's commitment to Indian resources, tribes need the Federal 
Government to reinforce their management capabilities by and through a 
renewed and clarified commitment to tribal fish and wildlife resources, 
further defining the application of trust responsibility in the arena 
of Tribal fish and wildlife relationships. Funding cuts, reductions in 
programs and inequities or inconsistencies in budgeting and support 
perpetuates a lukewarm and uncertain commitment by the Federal 
Government and cause difficulties for tribes in properly managing 
natural resources. General Federal conservation and management programs 
targeting resource protection on a broader, national scale do not 
provide a consistent support mechanism upon which strong and effective 
tribal conservation and management programs can be built. Tribes need 
legislation to help resource management on Indian lands. Without 
specific devotion to the fundamental management of Indian resources, 
shortfalls and gaps will continue and resources will suffer.
    The Society can attempt to provide its perspective on the 
challenges facing tribes as they strive to develop and sustain fish and 
wildlife management programs on tribal lands or for tribal resources. 
If legislation is to effectively respond to the challenges, the bill as 
currently drafted needs to be narrowed and refined, identifying support 
mechanisms for on-the-ground management and conservation of fish and 
wildlife in Indian country. The bill needs to focus on fundamental fish 
and wildlife conservation management and should not be diverted for 
other purposes. While support of special and specific interests are 
valid in certain areas of Indian country, S. 2301 attempts to achieve 
too much and should not dilute the basic unmet needs that exist for 
many Indian tribes. Legislation and funding for core tribal fish and 
wildlife management programs should be stabilized, made equitable and 
consistent between tribes, and not be provided on a sporadic, 
competitive basis. In anticipation of objections to the success of the 
S. 2301, strategic foresight may prudently include a streamline 
structure consistent with the original intent, theme and title of this 
legislation.
    In the event that the legislation is enacted, S. 2301 does not 
identify funding sources and will likely go unfunded, distinctive 
special issues or needs may find a higher degree of success on an 
individual basis or practical channel. Special issues and needs may 
likely be best effective and given attention in a bill suited to the 
particular issues or needs. Unique interests should be addressed, but 
should be addressed in regards and in deference to affected 
representatives and unmet needs that do not exist for other tribes. 
Tribes must be afforded equitable opportunity reflected by their unique 
circumstances across the nation, as each tribe has some level of unmet 
resource management needs. Resource needs that exceed fundamental fish 
and wildlife conservation management needs (like the need for 
enforcement officers, scientific capacity or operational assets) may be 
dealt with on an alternative basis.
    The Society is encouraged by the emphasis on resource education as 
it is consistent with the priorities of the Society. This bill will 
take a leap forward in supporting sorely needed educational programs in 
tribal fish and wildlife management. it may be possible to combine some 
of the education provisions and to review the programs relative to 
current, similar programs.
    Fundamental tribal fish and wildlife conservation management should 
be supported and funded by the Federal Government on a permanent, non-
exclusive and equitable basis, to secure adequate resources, and truly 
make this a success. Over the years, conservation and management 
programs for States and U.S. territories, funded by Federal dollars, do 
not translate into conservation and management benefits for Indian 
country. This legislation will demonstrate for tribes equity in their 
part to manage vital natural resources that benefit the American 
people. We look forward to working with the committee to identify this 
resolve and to implement or reinforce programs for the benefit of 
tribal natural resources. Thank You.

  Prepared Statement of Olney Patt, Jr., Executive Director, Columbia 
                   River Inter-Tribal Fish Commission

    Mr. Chairman, members of the committee, on behalf of the Columbia 
River treaty tribes, I would like to thank you for this opportunity to 
provide testimony on the Native American Fish and Wildlife Resources 
Management Act of 2004. My name is Olney Patt, Jr. and I am the 
executive director of the Columbia River Inter-Tribal Fish Commission. 
The Commission was formed by resolution of the Nez Perce Tribe, the 
Confederated Tribes of the Umatilla Indian Reservation, the 
Confederated Tribes of the Warm Springs Reservation of Oregon and the 
Confederated Tribes and Bands of the Yakama Nation for the purpose of 
coordinating fishery management policy and providing technical 
expertise essential for the protection of the tribes' treaty-protected 
fish resources. Both independently and through their Commission 
process, the Columbia River treaty tribes have worked cooperatively, 
and with some success, with the States and Federal agencies, as well as 
with private landowners, to restore populations of the shared salmon 
resource. The Columbia River treaty tribes see this bill as opportunity 
to provide a framework for tribes to deal with specific on-reservation 
resource management issues as well as to provide a national framework 
that can allow tribes, states and the Federal Government to also 
successfully address regional management issues where there are shared 
natural resources.
    I want to note that I will focus on a couple of key elements of 
this bill in my testimony today and that I will supplement the record 
with additional written testimony within a few weeks.
    Since 1977, our Commission has contracted with the BIA under the 
Indian Self-Determination Act (P.L. 93-638) to provide technical 
expertise essential for the protection of the tribes' treaty-protected 
fish resources. Through a governing body of leaders from four tribes 
working together to protect their treaty fishing rights and a staff of 
biologists, hydrologists, law enforcement personnel, and other experts 
advising tribal policymakers, this Commission has demonstrated that 
tribes are able to coordinate with a multitude of parties on a 
regional, national, and international level. What we have learned 
during the history of the Commission is that through better regional 
coordination and cooperation, we can spend more time working with state 
and Federal land water mangers on developing shared resource management 
strategies and less time in court.
    Since the tribes formed the Commission, we have seen the 
development and implementation of a cooperative harvest management plan 
for the Columbia River. In the late 1960's and through the 1970's, the 
tribes spent much time in court debating how the tribes and states 
should share the conservation burden of the shared salmon resource. By 
the late 1980's, the tribes and states had come to an agreement on a 
harvest plan for co-management of this resource, with some agreement on 
production programs. This plan, though currently under revision, has 
largely replaced the annual litigation over the conservation and 
harvest management of the shared salmon resource that originates in the 
Columbia River.
    On an international scale, in the early 1980's we witnessed a 
dangerous coastwide decline in Chinook salmon stocks from southeast 
Alaska, through British Columbia, and throughout the Pacific Northwest. 
The need to deal with this conservation crisis helped to push the 
United States and Canada to reach an agreement on the Pacific Salmon 
Treaty in 1985. Under the Treaty, there is now a management structure 
through which the parties can share technical information and develop 
strategies to deal with management problems concerning the shared 
salmon resource. The Columbia River treaty tribes, along with the 
western Washington treaty fishing tribes, were significant participants 
in the negotiation of that Treaty and continue to play a significant 
role in its implementation.
    Now each of the examples I've outlined deal with complex, multi-
jurisdictional management issues. More often than not, we would 
anticipate that individual tribes would use the management planning and 
resource inventory structure outlined in this bill to address on-
reservation resource management issues. At the same time, this resource 
inventory and management planning process may have an application for 
shared resources off reservation, such as salmon. In either case 
though, this bill acknowledges the importance of the tribes to 
participate in the resource planning and management of resources they 
reserved to themselves through the treaty process with the United 
States, or that have been recognized through executive orders, 
statutes, judicial decrees, or through other methods. Just as 
importantly, the structure and process laid out in the bill can help to 
prevent surprises to resource users on the a reservation or, 
particularly in the case of shared resources that may be taken by 
tribal members off-reservation, the planning process can help to 
prevent surprises for non-tribal members off-reservation.
    This bill, by specifically allowing tribes to opt-in to the 
resource inventory and planning process, recognizes that the needs of 
individual tribes differ within regions and across the continent. This 
bill does not force any tribe to undertake the resource inventory and 
management planning process provided in this bill. Undertaking a 
resource inventory and survey would only occur at the request of a 
tribe, the development of a resource management plan would then follow 
at a pace set by each individual tribe. Nor would this bill require any 
tribe to abandon a current management plan, co-management agreements, 
or any other working resource management plan. It does offer the 
promise of a structure and the resources that can be utilized by all 
tribes, at their option, in developing new plans or in revising old 
management plans.
    I would like to note an important element in this bill: Section 202 
of the bill provides a framework to increase the educational 
opportunities for tribal members to gain the knowledge and training 
necessary to manage tribal resources. It also provides an opportunity 
for tribes to coordinate and cooperate with other tribes, with 
universities and with others as appropriate on technical and scientific 
issues associated with resource management.
    We see great promise, both for tribes and for natural resource 
management, in the development of tribal cooperative research units at 
universities across the country. Within the Columbia River basin, this 
Commission, working with its member tribes, identified a critical 
regional need for additional facilities to handle genetics work 
associated with regional salmon restoration activities. On behalf of 
its member tribes, the Commission entered into a Memorandum of 
Agreement with the University of Idaho to site these facilities at the 
University's aquaculture research facility. Building upon that 
agreement, and acknowledging the desire of other tribes in the basin to 
participate in the opportunities offered by our arrangement with the 
University, we have worked with the University to outline a memorandum 
to establish a cooperative research unit that other tribes can join as 
well.
    The formation of that tribal cooperative research unit with the 
University of Idaho provides several benefits: It allows the tribes' to 
have their own staff driving the research agenda and working on 
resource issues of importance to the tribe; it offers tribal staff the 
opportunity to reach out to the non-tribal community through teaching 
assignments at the University; and it provides a place for tribal 
members attending the University to take on undergraduate or graduate 
degree research work. All of this would be accomplished in a 
cooperative, coordinated research forum that could include other State 
or Federal researchers, as the tribes might determine is appropriate. I 
would note that it is important that we insure that the opportunities 
laid out for tribal students in this section of the bill, especially as 
to the development of the cooperative research unit system, are 
integrated with the opportunities and work of the Indian College 
System.
    I also want to touch upon another section of the bill dealing with 
hatchery programs. As we've learned in the Pacific Northwest, 
hatcheries can be a part of the problem--but can also be a significant 
part of the solution--in ensuring the sustainability of a fishery 
resource. It all depends upon how the goals and objectives of a 
hatchery program are reached by a tribe or in some situations, by a 
tribe in coordination with other co-managers. The section of the bill 
that provides for assistance to the tribal hatchery programs is geared 
to dealing with both strictly on-reservation tribal hatchery program 
activities as well as situations where tribal hatchery programs may be 
located at least partially off-reservation. In addition, it provides an 
opportunity for a tribe, or tribes, to enter into cooperative 
agreements with Federal agencies to either co-manage a hatchery program 
or takeover the management of a hatchery program. In either case, we 
would anticipate that funding for such hatchery management or co-
management programs would originate initially with the cooperating 
agency, either the U.S. Fish and Wildlife Service or the National 
Marine Fisheries Service, and not originate within the programmatic 
budget of the Bureau of Indian Affairs. We could have already utilized 
these provisions within the Columbia River basin to enter into mutually 
beneficial cooperative programs but were hampered by the Federal 
agency's lack of Congressional authority to do so. This section of the 
bill would allow us to take advantage of such a cooperative venture in 
the future.
    For the reasons I've laid out in my testimony today, the Columbia 
River treaty tribes support the general concepts and opportunities 
provided in language of the Native American Fish and Wildlife Resources 
Management Act of 2004. We would welcome the opportunity to work with 
you, other members of the committee and with your staff to fine tune 
the bill to ensure that it meets the needs of all of the tribes within 
the United States and to ensure its passage during this Congress.

[GRAPHIC] [TIFF OMITTED] T3499.001

[GRAPHIC] [TIFF OMITTED] T3499.002

[GRAPHIC] [TIFF OMITTED] T3499.003

[GRAPHIC] [TIFF OMITTED] T3499.004

[GRAPHIC] [TIFF OMITTED] T3499.005

[GRAPHIC] [TIFF OMITTED] T3499.006

[GRAPHIC] [TIFF OMITTED] T3499.007

[GRAPHIC] [TIFF OMITTED] T3499.008

[GRAPHIC] [TIFF OMITTED] T3499.009

[GRAPHIC] [TIFF OMITTED] T3499.010

[GRAPHIC] [TIFF OMITTED] T3499.011

[GRAPHIC] [TIFF OMITTED] T3499.012

[GRAPHIC] [TIFF OMITTED] T3499.013

[GRAPHIC] [TIFF OMITTED] T3499.014

[GRAPHIC] [TIFF OMITTED] T3499.015

[GRAPHIC] [TIFF OMITTED] T3499.016

[GRAPHIC] [TIFF OMITTED] T3499.017

[GRAPHIC] [TIFF OMITTED] T3499.018

[GRAPHIC] [TIFF OMITTED] T3499.019

[GRAPHIC] [TIFF OMITTED] T3499.020

[GRAPHIC] [TIFF OMITTED] T3499.021

[GRAPHIC] [TIFF OMITTED] T3499.022

[GRAPHIC] [TIFF OMITTED] T3499.023

[GRAPHIC] [TIFF OMITTED] T3499.024

[GRAPHIC] [TIFF OMITTED] T3499.025

[GRAPHIC] [TIFF OMITTED] T3499.026

[GRAPHIC] [TIFF OMITTED] T3499.027

[GRAPHIC] [TIFF OMITTED] T3499.028

[GRAPHIC] [TIFF OMITTED] T3499.029

[GRAPHIC] [TIFF OMITTED] T3499.030

[GRAPHIC] [TIFF OMITTED] T3499.031

[GRAPHIC] [TIFF OMITTED] T3499.032

[GRAPHIC] [TIFF OMITTED] T3499.033

[GRAPHIC] [TIFF OMITTED] T3499.034

[GRAPHIC] [TIFF OMITTED] T3499.035

[GRAPHIC] [TIFF OMITTED] T3499.036

[GRAPHIC] [TIFF OMITTED] T3499.037

[GRAPHIC] [TIFF OMITTED] T3499.038

[GRAPHIC] [TIFF OMITTED] T3499.039

[GRAPHIC] [TIFF OMITTED] T3499.040

[GRAPHIC] [TIFF OMITTED] T3499.041

[GRAPHIC] [TIFF OMITTED] T3499.042

[GRAPHIC] [TIFF OMITTED] T3499.043

[GRAPHIC] [TIFF OMITTED] T3499.044

[GRAPHIC] [TIFF OMITTED] T3499.045

[GRAPHIC] [TIFF OMITTED] T3499.046

[GRAPHIC] [TIFF OMITTED] T3499.047

                                 <all>

</pre></body></html>
